<html>
<title> - EXPANDING PASSENGER RAIL SERVICE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                    EXPANDING PASSENGER RAIL SERVICE

=======================================================================

                                (111-44)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                June 22, 2009 (Pittsburgh, Pennsylvania)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
50-821 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                 (iii)







     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

DINA TITUS, Nevada                   BILL SHUSTER, Pennylvania
HARRY TEAGUE, New Mexico             THOMAS E. PETRI, Wisconsin
NICK J. RAHALL II, West Virginia     JERRY MORAN, Kansas
JERROLD NADLER, New York             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         HENRY E. BROWN, Jr., South 
GRACE F. NAPOLITANO, California      Carolina
JASON ALTMIRE, Pennsylvania          TIMOTHY V. JOHNSON, Illinois
TIMOTHY J. WALZ, Minnesota           SAM GRAVES, Missouri
MICHAEL A. ARCURI, New York          JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ALBIO SIRES, New Jersey              LYNN A. WESTMORELND, Georgia
MARK H. SCHAUER, Michigan            JEAN SCHMIDT, Ohio
BETSY MARKEY, Colorado               CANDICE S. MILLER, Michigan
MICHAEL E. McMAHON, New York         VERN BUCHANAN, Florida
THOMAS S. P. PERRIELLO, Virginia     ROBERT E. LATTA, Ohio
PETER A. DeFAZIO, Oregon             BRETT GUTHRIE, Kentucky
JERRY F. COSTELLO, Illinois          AARON SCHOCK, Illinois
BOB FILNER, California               ANH ``JOSEPH'' CAO, Louisiana
EDDIE BERNICE JOHNSON, Texas         PETE OLSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                  (iv)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ardolino, Robert, CEO, Urban Innovations.........................    23
Fauver, Toby L., AICP, Deputy Secretary for Local and Area 
  Transportation, Pennsylvania Department of Transportation......     6
Gleason, Christopher, CEO/Chairman, Gleason Financial............     6
Gurney, Ph.D., Fred, President and CEO, Maglev, Inc..............    23
Joseph, Kenneth, Member, Council of Representatives, National 
  Association of Railroad Passengers.............................     6
Lang, Raymond, Senior Director for National State Relations, 
  National Railroad Passenger Corporation (AMTRAK)...............     6
McMahon, Patrick J., President, Amalgamated Transit Union Local 
  85.............................................................    23
Posner III, Henry, Chairman, Railroad Development Corporation....     6
Sieminski, Daniel W., Associate Vice President for Finance and 
  Business, The Pennsylvania State University....................    23
Simonelli, Lorenzo, President and CEO, GE Transportation.........    23
Wohlwill, David, AICP, Manager of Extended Range Planning, Port 
  Authority of Allegheny County..................................    23
Yachmetz, Mark E., Associate Administrator for Railroad 
  Development, Federal Railroad Administration...................     6

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ardolino, Robert.................................................    46
Fauver, Toby L...................................................    51
Gleason, Christopher.............................................    54
Gurney, Ph.D., Fred..............................................    57
Joseph, Kenneth..................................................    67
Lang, Raymond....................................................    70
McMahon, Patrick J...............................................    75
Posner III, Henry................................................    81
Sieminski, Daniel W..............................................    85
Simonelli, Lorenzo...............................................   138
Wohlwill, David..................................................   144

                       SUBMISSION FOR THE RECORD

Sieminski, Daniel W., Associate Vice President for Finance and 
  Business, The Pennsylvania State University, "Pennsylvania High 
  Speed Intercity Rail Passenger Commission Final Report, 
  Executive Summary".............................................   112

                         ADDITION TO THE RECORD

Borough of Oakmont, Robert J. Fescemeyer, Mayor and Michael L. 
  Federici, President of the Oakmont Borough Council, written 
  statement......................................................   146


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                    EXPANDING PASSENGER RAIL SERVICE

                              ----------                              


                         MONDAY, JUNE 22, 2009

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                          Materials
             Committee on Transportation and Infrastructure
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:04 a.m., at 
United States Post Office and District Courthouse, 700 Grant 
Street, Court Room 6A, Pittsburgh, Pennsylvania, Hon. Jason 
Altmire [Chairman of the Subcommittee] presiding.
    Mr. Altmire. I call this hearing to order.
    Thank you all for being here today for this Transportation 
Committee for the United States House of Representatives field 
hearing. Today's hearing will examine the essential role that 
passenger rail plays in America's transportation infrastructure 
and the necessity for expanding its service and efficiency.
    Our Nation's transportation system is near capacity with 
gridlock on our highways and in our airspace. In 2006, there 
were more than 3 trillion vehicle miles traveled, roughly 
double what was traveled in 1980 and more than four times the 
total miles traveled in 1957, the first year of the interstate.
    Our Nation's airways have fared no better. Despite record 
passenger loadings, delays in the Nation's aviation system 
delivered a staggering blow to the U.S. economy. In fiscal year 
2008, U.S. airlines continued to meet demand, carrying 757.4 
million passengers, but the impact of unprecedented fuel prices 
and an overall recess have caused airlines to cut back capacity 
by reducing and eliminating routes, leaving consumers to vie 
for fewer travel options.
    The U.S. Department of Transportation has described the 
current congestion on our highways and our air infrastructure 
as chronic. Moving passengers to railways can have an immediate 
impact on highways and airways, alleviating congestion, 
reducing consumption, consequences and our dependence on fossil 
fuels.
    Since its origins in 1970, the National Railroad Passenger 
Corporation, also known as Amtrak, has been tasked with 
facilitating passenger services nationwide and rebuilding the 
rail passenger system into modern, efficient systems. Today, 
Amtrak operates a rail network across 46 States serving more 
than 500 destinations and 21,000 miles of routes with its 
nearly 18,000 employees. In its sixth straight year of record 
ridership, Amtrak served around 78,000 passengers per day on 
its 300 trains, totaling more than 28.7 million passengers 
nationwide during fiscal year 2008. Given the ongoing concerns 
with congestion and our dependence on foreign oil, rising gas 
prices and greenhouse gas emissions, both Amtrak and the States 
continue to look for opportunities to expand passenger rail 
service.
    Adequate investment in passenger railroad infrastructure is 
crucial for national economic growth, global competitiveness, 
the environment and our quality of life. Continued efforts to 
expand passenger rail service are critical to maintaining an 
effective nationwide system as well as to advance Congress and 
the President's vision for development of high-speed rail 
corridors throughout the United States.
    One 70-foot-wide rail corridor can carry the same number of 
persons per hour as a 16-lane expressway, emitting fewer 
pollutants and consuming less energy per passenger mile. 
Capacity can be added to many existing corridors at lower cost 
than comparable highway improvements using modern train sets or 
high-speed rail.
    Rail travel is six times safer than highway travel and in 
fact is the safest mode of transportation available worldwide. 
Increased travel by rail stimulates economic activity and spurs 
private investment in urban areas and central business 
districts around rail stations. Rail service grants the freedom 
of mobility to those unable to easily use our air and highway 
systems because of age, physical disabilities, health problems 
or economic circumstances and reduces our dependence on foreign 
oil.
    Investments in expansion of passenger rail service will 
also encourage economic growth through the creation of highly 
skilled, good-paying jobs. Since the recession began in 
December 2007, one of the hardest hit sectors has been in 
construction, which has seen unemployment rates approaching 21 
percent. Since that time, over a million jobs have been lost in 
the construction sector alone. Expanding passenger rail 
infrastructure will create jobs, not only in the construction 
sector of the economy but in manufacturing and service sectors 
as well. And in order to address our Nation's economic, energy, 
environmental and transportation challenges, we need to 
continue expanding passenger rail service and invest in high-
speed rail.
    On February 17, 2009, the American Recovery and 
Reinvestment Act of 2009 was signed into law. The Recovery Act 
provides $9.3 billion dedicated to passenger rail including $8 
billion in grants to States for development of intercity 
passenger and high-speed rail and $1.3 billion for capital 
improvements to Amtrak. Additionally, the President's budget 
proposes additional funding for each of the next 5 years for 
the advancement and development of high-speed rail corridors 
throughout the Nation.
    Pennsylvania is currently served by five key Amtrak 
intercity rail corridors and routes. In 2008, three of Amtrak's 
busiest stations were in Pennsylvania. Philadelphia 30th Street 
Station was ranked the third busiest in the Nation, Harrisburg 
was 21st and Lancaster was 22nd. But we are here in Pittsburgh.
    In the Passenger Rail Investment and Improvement Act, 
Amtrak was tasked to study the routes between Harrisburg and 
Pittsburgh and the Capitol Limited route between Cumberland, 
Maryland, and Pittsburgh. We await completion of these studies, 
which is set for October, but I know that Pittsburgh, like all 
major American cities, stands to benefit from increased 
passenger rail service. Examining the growth potential and 
eventually facilitating the service is a goal of mine and other 
Members of this Subcommittee. I look forward to hearing the 
testimonies from our esteemed and informed witnesses today and 
I look forward to a brighter future for passenger rail service 
in western Pennsylvania and throughout America.
    I want to thank my friend, Congressman Shuster on the 
Transportation Committee for being here today. This is 
something that we have talked about for a long time and a goal 
that we share, and I am especially grateful that Congressman 
Murphy has joined us as well, and at this time I ask unanimous 
consent for all Members of the House to participate in this 
mornings' hearing and to ask questions of the witness. Without 
objection, so ordered.
    And I would turn it over to Congressman Shuster for his 
opening statement.
    Mr. Shuster. Thank you very much, Mr. Altmire. Thank you 
for chairing this morning's hearing. This is an important 
hearing and I appreciate the witnesses being here to be able to 
shed some light and give their views on how we can improve 
passenger rail service in Pennsylvania but more importantly as 
we look from Harrisburg west to Pittsburgh how we can improve 
rail service.
    As Chairman Altmire has mentioned, he and I have been 
working for the past couple months, it might even be several 
months--time flies--but we have worked together to try to 
organize and hold this hearing today. So again, I want to thank 
you for all of you being here and look forward to hearing your 
testimony on how we can improve rail service in western 
Pennsylvania.
    In 2006, the Pennsylvania Department of Transportation 
partnering with Amtrak completed about $140 million worth of 
improvements to the 104-mile Keystone Corridor between 
Philadelphia and Harrisburg. This brought travel time between 
those cities down to about 90 minutes and allowed maximum 
speeds of up to 110 miles an hour, which they average about 69 
miles an hour, and that is the fastest passenger train speeds 
in the United States outside the Northeast Corridor. Another 
staggering figure to me is that over the last 3 years they have 
seen about a 20 percent increase in ridership, and over the 
last 3 years combined about a third more people are riding on 
that line today, and I think that just goes to show you what 
increasing the speed and efficiency and frequency can do to 
passenger rail in this country, and that Keystone Corridor 
should be a model that we can take out not only in Pennsylvania 
but across this country to show evidence that it works.
    Presently, Amtrak operates 14 daily round trips on the 
Keystone Corridor, however, west of Harrisburg it is another 
story. There is only one round trip on Amtrak's Pennsylvania 
route between Harrisburg and Pittsburgh, and the ride takes 5-
1/2 hours to go 250 miles. The same trip takes 4 hours to drive 
or to ride on the new twice-daily Steel City Flier, the 
intercity bus service.
    But transportation services are not just about savings. 
They are also about access. There are a number of underserved 
Pennsylvania communities between Harrisburg and Pittsburgh 
including Altoona, Johnstown and the home of the ninth largest 
public university campus in the Nation, State College, 
Pennsylvania. With an enrollment of more than 44,000 students 
at the University Park campus as well as major conferences and 
festivals at Penn State year round, not to mention the 
popularity of the Nittany Lions Big Ten football at least six 
weekends a year, there is a clear need for improved 
transportation service to State College. This is a major 
population center with a built-in transit and rail constituency 
and we are missing a very real opportunity by not providing 
passenger rail service to State College.
    By the 1970s, after many years of decline and 
disinvestment, the railroad system in the United States had 
fallen in a state of disrepair. Dozens of railroads that 
carried both freight and passengers went bankrupt and the U.S. 
government was forced to step in and pick up the pieces. 
Wisely, our predecessors passed the Staggers Act of 1980, a law 
that deregulated railroads and allowed the rail renaissance to 
take hold. In the past 30 years, the freight railroads in this 
country have enjoyed phenomenal growth and profitability not 
seen for generations.
    Unfortunately, an area that has lagged up until very 
recently is passenger rail. Amtrak took over all intercity 
passenger city in this country in the 1970s and competitive 
forces have not taken hold in this market for a number of 
reasons. In Congress, we have acted to broaden competition for 
rail service and providing more realistic funding levels for 
Amtrak so that the railroad does not have to be on life 
support. Last year President Bush signed into law a bill that 
would first time allow private operators to run services over 
current Amtrak routes. In addition, the law directs the 
Secretary of Transportation to solicit proposals for high-speed 
rail for the private sector.
    Since this law was passed, the new Administration has taken 
the ball and run with it. Congress appropriated $8 billion in 
the American Recovery and Reinvestment Act and the 
Administration has requested another $5 billion for high-speed 
rail over the next 5 years. In the new surface transportation 
authorizing bill, which we are going to be taking up shortly in 
the House, the Highways and Transit Subcommittee this week 
significantly ups the ante by proposing $50 billion for high-
speed rail over the next 6 years.
    The time for improved passenger rail has come in the United 
States. Cities like Pittsburgh need alternatives to crowded 
highways and congested airports. Rail is clean, safe, fast, 
convenient and creates opportunities for economic development 
along the rail corridor and around the stations. I believe we 
are about to experience a new era in passenger rail in this 
country. I want western Pennsylvania to participate in the new 
era and enjoy the benefits of increased and expanded passenger 
rail service.
    I look forward to hearing your testimony and thank you for 
being here today.
    Mr. Altmire. Congressman Tim Murphy.
    Mr. Murphy. Thank you, Congressman Altmire and Congressman 
Shuster. Thank you for inviting me to join you today for this 
Transportation Subcommittee hearing on rail.
    Pittsburgh has an interesting history on rail and an 
interesting history of where it is. Two hundred and fifty years 
ago, this was the battleground of the French and Indian War, 
and as part of that, you had folks like General Braddock and 
General Forbes and Colonel Washington and others trying to get 
there from here, wherever there was, and they found it quite 
difficult as it would take days of rough travel through the 
mountains to get into the fork of the rivers back then some 
years ago, hauling freight between Philadelphia and Pittsburgh, 
300 miles or so. Later on it took 3 weeks or longer even in the 
best of conditions, oftentimes on wooden plank roads. Then we 
moved to canals, inclines and tunnels to come through this 
geographic barrier, and although nowadays we don't send whiskey 
back and forth to the East, we do still have a need for 
transportation, and it is interesting over the years how this 
has become something of an island. As the Pittsburgh has cut 
its flights from USAir's 600-plus flights a day coming in and 
out of Pitt Airport, down to less than 50, we recognize a 
better transportation system here is critically linked as both 
something to build business and as a barrier for economic 
development.
    It is interesting that an Amtrak train from Pittsburgh, you 
don't have a lot of choices. You can basically if you want to 
go to Harrisburg take the 7:20 out of Pittsburgh, arrive a 
little before 1:00 in the afternoon, and if you want to come 
back leave at 2:36 and arrive at 8:05 p.m. It is $36, which is 
much cheaper than the nearly $500 flight, but the question is, 
can we make it convenient, clean and comfortable and get 
passengers back on board?
    And that is where we recognize that all these years later 
from when the Pennsylvania Railroad connected Pittsburgh and 
Philadelphia and a time when traffic was cut to 14 hours and 
now it is only 7-1/2 hours across the State, we still have far 
to go, both figuratively and time-wise. It is critically 
important we shorten the time of this route, we make it smooth 
and comfortable, we make sure that the rail lines are available 
for Amtrak traffic or other rail lines and they don't have to 
be shared with freight lines. And we are certainly open to 
listen to every possibility what we can do to make this system 
uncongested, because it is already safe to travel by train but 
it is unfortunate that most people never think of getting there 
because with just one train a day, it is hardly convenient for 
people doing business throughout the Commonwealth.
    I note as someone who sometimes travels the route from 
Washington, from Philadelphia, New York on the train, it is 
amazing how the trains are packed with people because they are 
clean, comfortable and convenient and high speed, and yet back 
here in the western part of the State, we have perhaps 
neglected ourselves and it is important that this Committee and 
Congress takes a more active role in pushing for high-speed 
rail to connect us to the rest of the area. It is not going to 
come by plane without massive amounts of investment, and it is 
interesting that the investments made for train are a fraction 
of those needed for other highway development.
    I hope to learn more in this hearing today about what we 
can do from the ideas from the many witnesses and look forward 
to Congress taking some clear and positive action to make sure 
we have a good rail system, high-speed system that operates out 
of Pittsburgh.
    With that, I yield back.
    Mr. Altmire. Thank you to you both, and we are going to 
introduce the first panel of witnesses. Many of you have 
testified many times before but I would remind all witnesses 
the way the time system works. You see the red, yellow and 
green lights there. The green light means you have 5 minutes to 
speak. When the light turns yellow, you have 1 minute 
remaining, please begin to summarize and wrap up your remarks. 
When the red light hits, you are out of time. We have a lot of 
witnesses to go through so let us try to stay on time if we 
could.
    I am pleased to introduce our first panel of witnesses. We 
have Mr. Mark Yachmetz, who is associate administrator for 
railroad development at the Federal Railroad Administration of 
the U.S. Department of Transportation. Next, we have MR. Roby 
Fauver, who is deputy secretary for local and area 
transportation of the Pennsylvania Department of 
Transportation. We have Mr. Ray Lang, senior director for 
national State relations for Amtrak. We have Mr. Christopher 
Gleason, the CEO and chairman of Gleason Financial. We have Mr. 
Henry Posner, chairman of the Railroad Development Corporation, 
and finally, we have Mr. Ken Joseph, member of the Council of 
Representatives of the National Association of Railroad 
Passengers.
    Let me remind the witnesses that under our Committee rules, 
oral statements must be limited to 5 minutes but your entire 
statement will appear in the record. Welcome to you all. We are 
very pleased to have you all here this morning and we will 
begin with Mr. Yachmetz. Welcome.

  TESTIMONY OF MARK E. YACHMETZ, ASSOCIATE ADMINISTRATOR FOR 
RAILROAD DEVELOPMENT, FEDERAL RAILROAD ADMINISTRATION; TOBY L. 
       FAUVER, AICP, DEPUTY SECRETARY FOR LOCAL AND AREA 
TRANSPORTATION, PENNSYLVANIA DEPARTMENT OF TRANSPORTATION; RAY 
 LANG, SENIOR DIRECTOR FOR NATIONAL STATE RELATIONS, NATIONAL 
 RAILROAD PASSENGER CORPORATION (AMTRAK); CHRISTOPHER GLEASON, 
 CEO/CHAIRMAN, GLEASON FINANCIAL; HENRY POSNER III, CHAIRMAN, 
 RAILROAD DEVELOPMENT CORPORATION; AND KENNETH JOSEPH, MEMBER, 
 COUNCIL OF REPRESENTATIVES, NATIONAL ASSOCIATION OF RAILROAD 
                           PASSENGERS

    Mr. Yachmetz. Mr. Chairman, Ranking Member Shuster and 
Members of the Subcommittee, I am honored to appear before you 
today on behalf of Federal Railroad Administrator Szabo and 
Secretary of Transportation Ray LaHood to discuss the potential 
for improvements in intercity passenger rail and in particular 
to discuss one of the most significant initiatives of President 
Obama, Vice President Biden and Secretary LaHood, and that is 
the development of high-speed rail transportation in America. 
To supplemental this testimony, I wish to incorporate by 
reference two recent publications by FRA, Vision for High-Speed 
Rail in America, which we put out in April, and High-Speed 
Intercity Passenger Rail Interim Program Guidance, which we put 
out last week. Both documents are available on FRA's website, 
www.fra.dot.gov.
    Mr. Altmire. Without objection, we will enter both of those 
into the record.
    Mr. Yachmetz. Thank you.
    America faces a new set of transportation challenges: 
creating a foundation for economic growth in a more complex 
global economy, promoting energy independence and efficiency, 
addressing global climate change and environmental quality, and 
fostering livable communities connected by safe and efficient 
modes of travel.
    The existing transportation system requires significant 
investment simply to rebuild and maintain the critical 
infrastructure we have today. Meeting our 21st century 
challenges will require new transportation solutions be 
considered as well. The Obama Administration believes that our 
transportation investment strategy must address these several 
key strategic goals: ensure safe and efficient transportation, 
build a foundation for economic competitiveness, promote energy 
efficiency, environmental quality and support interconnected 
livable communities. The Obama Administration believes that to 
help address the Nation's transportation challenges, we must 
invest in an efficient passenger rail network that connects 
communities across America.
    Intercity passenger rail is well positioned to address many 
of the Nation's strategic transportation goals. Rail is a cost-
effective means for meeting transportation needs in congested 
intercity corridors. In many cases, modest investment on 
existing rights-of-way can result in service with highly 
competitive trip times while also providing ancillary benefits 
to energy-efficient freight rail service, and passenger rail 
including high-speed rail has a strong track record of safety 
in the United States and overseas. America's transportation 
system is the lifeblood of its economy. Building a robust rail 
network can help serve the needs of national and regional 
commerce in a cost-effective, resource-efficient manner by 
offering travelers and freight convenient access to economic 
centers.
    Moreover, investments in passenger rail including high-
speed rail will not only generate highly skilled construction 
and operation jobs but can also provide a steady market for 
revitalized domestic industries producing such essential 
components as rail control systems, locomotives and passenger 
cars.
    Rail is already among the cleanest and most efficient 
energy-efficient modes of transportation. Future intercity 
passenger rail networks including high-speed rail using new 
clean diesel electric power can further enhance rail's 
advantages. Rail transportation has generally been associated 
with smart growth because it can foster higher-density 
development than has been typically associated with highways 
and airports. Rail is uniquely capable of providing both high-
speed intercity transportation and its own efficient local 
access.
    A cornerstone of the Administration's rail strategy is 
developing a comprehensive high-speed rail passenger network. 
This will require long-term commitment at both the federal and 
State levels. As mentioned earlier, the President proposes to 
use the $8 in the Recovery Act to jumpstart this program and 
then continue the program with $1 billion a year for every year 
beyond 2009.
    A major reshaping of the Nation's transportation system is 
not without significant challenges. After decades of relatively 
modest investment in passenger rail, the United States has a 
dwindling pool of expertise in the field and a lack of 
manufacturing capacity. Federal and State governments face a 
difficult fiscal environment in which to balance critical 
investment priorities, and many will have to ramp up their 
program management infrastructure. The country's success in 
creating a sustainable transportation future, however, demands 
that we work to overcome these challenges through strong new 
partnerships among the States and the local governments, 
railroads, manufacturers and other stakeholders along with the 
federal commitment that we have talked about.
    In the near term, our proposal lays the foundation for the 
network by investing in intercity rail infrastructure equipment 
and intermodal connections. Our strategy seeks to in the near 
term advance express high-speed rail, those systems operating 
in excess of 150 miles an hour in selected corridors, develop 
emerging and regional high-speed rail services, those that 
would operate at 90 to 110 miles an hour prospectively on a 
shared track and in some cases dedicated track, and upgrade the 
reliability and service on conventional intercity rail 
passenger services with speeds in the 79- to 90-mile-an-hour 
speed range. This near-term strategy emphasizes making 
investments that yield tangible results within the next few 
years while also creating a pipeline that enables ongoing 
corridor growth.
    As President Obama outlined in his March 20th memorandum to 
all of us in the federal government, our process is going to be 
transparent, merit-based selection, use transparent selection 
criteria. We are going to measure public benefits and we are 
going to work to reduce risk.
    As I see our time is passing, I just want to close by 
saying that these are exciting times for us. We have never seen 
at the Federal Railroad Administration the degree of commitment 
and engagement on the part of the President and the Vice 
President in railroad programs, but if our effort is going to 
be successful, we are going to need Congressional support as 
well in ensuring that we have the stable source of funding to 
advance the programs and the resources to implement that, and 
we look forward to working with the Committee to make improved 
intercity passenger rail and high-speed rail a reality.
    With that, I will close. I will be happy to answer any 
questions you may have.
    Mr. Altmire. Thank you for your testimony. Thank you for 
taking the time to travel here to be with us today.
    Mr. Fauver.
    Mr. Fauver. Good morning and thank you for having me here 
to provide testimony on high-speed and intercity rail 
development and specifically in Pennsylvania.
    Imagine being able to take a train from Philadelphia to 
Pittsburgh and arrive in less time than it would take to drive. 
Right now it will take you 5 hours to make that drive. We are 
on the cusp of making choices that will advance our 
transportation system into the 21st century, and high-speed 
rail is one of the choices that we have before us.
    As a planner, I know that we need to envision a future, 
then make decisions to implement plans. I believe that the 
choices we make today regarding high-speed rail will set the 
course for the future of our country. We have been doing that 
here in Pennsylvania and as a result we are seeing the 
benefits. We found that our investments in rail infrastructure 
improvements are improving service. Our citizens are talking 
with their feet, boarding trains to and from places all along 
the Keystone Corridor.
    When Governor Rendell came into office, he followed through 
and completed a commitment made in the prior administration to 
partner with Amtrak on $145 million improvement to the 104-mile 
Keystone Corridor between Philadelphia and the state Capitol in 
Harrisburg. The improvements included 128 miles of continuous-
welded rail, more than 200,000 concrete ties, 52 new switches 
and the first upgrade to the signal electrification system in 
over 70 years. The improvements were completed in 2006 and 
allow us to operate trains at a maximum speed of 110 miles per 
hour. That is the fastest in the United States outside the 
Northeast Corridor. The express travel time between 
Philadelphia and Harrisburg was cut to 90 minutes. That is a 
30-minute improvement from what it was prior to the 
improvements, and that is far better than what it takes to 
travel by car, anywhere between 2 hours and 20 minutes and 3 
hours, depending on traffic. If you ever traveled on the 
Schuylkill, you know what we are talking about. People using 
the Keystone Corridor avoid one of the most congested 
expressways, and most importantly, it is one of the most 
reliable corridors in the country with trains averaging almost 
90 percent reliability over the past year, and it is cost 
competitive as well.
    Riders responded to the improvements. Since the 
improvements, ridership on the Keystone Corridor has increased 
by 26 percent. The line will provide service to 1.2 million 
riders this year. These Keystone Corridor improvements 
represent a first step toward building a truly national 
intercity high-speed rail network. We have a lot more to do, 
though, in Pennsylvania. We are already using some of the 
stimulus dollars we received to improve the Elizabeth station 
along the Keystone Corridor and bring it up to make it ADA 
accessible. We are considering applying for discretionary 
stimulus money to make further track improvements that will 
allow top speeds of 125 miles per hour and further reduce 
travel time between Philly and Harrisburg.
    So what makes intercity and high-speed rail successful? 
People want to use transportation systems that are frequent, 
reliable, cost affordable and that are time competitive. Beyond 
the Keystone Corridor and the Northeast Corridor, Pennsylvania 
does not currently have passenger rail services that meet those 
requirements. Going back to the dream, we know we need to make 
choices today to get there. We need to plan for possible 
improvements west of Harrisburg to Pittsburgh, a route served 
by just one train a day in each direction. Pennsylvania service 
that operates between Pittsburgh and Harrisburg needs 
substantial capital and operating funding investments to 
improve service. It takes over 5 hours to travel between 
Harrisburg and Pittsburgh by train. A person can make that in a 
personal automobile in 3-1/2 hours whenever they want to make 
the trip. Many of the train stations along the route are in a 
state of disrepair and do not meet the requirements of the 
Americans with Disabilities Act.
    In 2005, PennDOT completed a study entitled The Keystone 
West Passenger Rail Study. This study was prepared by Norfolk 
Southern with support from the Woodside Consulting Group. The 
study identified the capital projects that will be necessary in 
the Norfolk Southern right-of-way between Harrisburg and 
Pittsburgh to increase the level of passenger rail service to 
four round trips per day. At the time it was two round trips 
but subsequently we lost Three Rivers service. The costs for 
the projects that will be required to allow for this increase 
were estimated $110.9 million, and that was in 2005. The study 
didn't deal with other cost elements, though, that need to be 
dealt with including capital costs for stations, additional 
train sets and the operating costs for the service. The 
projects identified in the Keystone West Passenger Rail Study 
alone were way too shortsighted. The United States must make 
substantial investments to have an interstate light rail 
system. We think that the investment that is needed in the 
Keystone West Corridor is billions, not in the hundreds of 
millions.
    High-speed rail is not a waste of resources. In the right 
places such as along the Northeast Corridor, the Keystone 
Corridor and other high-density corridors around the Nation, an 
investigation in high-speed rail makes tremendous sense and can 
give the National real workable transportation options for the 
future. That is why President Obama's decision to commit $8 
billion in stimulus funds for high-speed rail and intercity 
rail improvements is a good move, a visionary move, and this 
investment will set the stage for ongoing rail improvements 
across the country.
    High-speed and intercity rail programs are about connecting 
high-density city areas. Doing so will permit higher levels of 
sustainability. It is important to note that the federal 
dollars we are talking about for high-speed rail are for 
capital. The cost of building these systems without federal 
funding to operate the intercity rail expansions, States and 
cities are going to have to address how they are going to pay 
the costs of operating these systems. In Pennsylvania, we have 
made choices in this fiscal year and the previous fiscal years 
and committed operating funds for the current Keystone service 
between Harrisburg and Philadelphia. Intercity rail systems 
can't pay for themselves. Tough local and State decisions must 
also be made to support intercity and high-speed rail as a 
reality.
    Mr. Altmire. Thank you for your testimony.
    From Amtrak, Mr. Lang.
    Mr. Lang. Good morning and thank you very much for the 
opportunity to testify before this Committee today. My name is 
Ray Lang and I am the senior director for government affairs at 
Amtrak. I have been with Amtrak for 14 years and I manage out 
outreach and liaison programs for all of our State and local 
partners.
    As you know, recent legislation such as the Passenger Rail 
Investment and Improvement Act, or PRIIA, and the American 
Recovery and Reinvestment Act, or ARRA, have established a 
number of very specific requirements for studies of potential 
service improvements as well as a grant program that is meant 
to fund partnerships between States and Amtrak for that same 
purpose.
    Amtrak and Pennsylvania have a significant and enduring 
partnership that spans the entire 38-year history of the 
corporation. We operate approximately 120 daily trains to 
Pennsylvania. We employ 2,539 Pennsylvania residents, and the 
company spent $110 million for goods and services in 
Pennsylvania last year. As Pennsylvania was the Keystone State 
of the colonies, it has now become a keystone of Amtrak's busy 
Northeast Corridor service. This partnership has provided other 
states a model for the translation of rail service from concept 
to reality. We have long enjoyed a strong partnership and I 
want to thank Secretary Biehler and Toby Fauver for the work 
that Pennsylvania has done in holding up its end of the 
partnership. Our partnership is a good foundation for future 
opportunities in Pennsylvania because PRIIA envisions a 
strategy built on partnerships, one where Amtrak and the States 
will work together to develop short-distance corridor services 
ranging from about 100 to 600 miles in length. One very 
successful partnership of that kind that the Act envisions took 
place right here in Pennsylvania, and that was the restoration 
of the electrified service on the Keystone Corridor between 
Philadelphia and Harrisburg.
    Under the leadership of Governor Rendell and former Amtrak 
president David Gunn, the State partnered with Amtrak to invest 
$145 million in that corridor. Each of us put in half of that 
total. We restored the electrification west of Paoli and 
improved the track for 110-mile-per-hour service. As a result, 
we were able to offer faster and more frequent service and the 
results have been exciting. Ridership grew by 20.1 percent in 
fiscal year 2007 and 19.8 percent in fiscal year 2008, a 
striking demonstration of the relevance of rail passenger 
service. Higher speeds and the elimination of the engine change 
at Philadelphia cut schedule times and made our trains 
competitive with airline service. The Keystone Corridor is a 
major triumph and it is a model that we would like to emulate 
and potentially to expand.
    I believe this success has influenced the legislation, and 
section 224 of PRIIA mandates studies on the costs and benefits 
of service on six routes specified in the Act all over of the 
country. Two of those studies touch on existing routes here in 
western Pennsylvania and will be of interest in the context of 
today's hearing. One study will examine the Harrisburg-to-
Pittsburgh route currently served by the daily Pennsylvanian. 
The statute requires a report to determine whether to increase 
frequency of passenger rail service along the route or other 
segments along the route. The other requires a study of the 
Capitol Limited route between Cumberland, Maryland, and 
Pittsburgh, to determine whether we should reinstate a station 
stop at Rockwood, Pennsylvania. These reports are due to the 
Committee on October 26, 2009. We have solicited proposals for 
the study and we expect to make the award around the 1st of 
July, and we are moving forward and expect to meet that 
deadline.
    These are only two of the many activities that Amtrak will 
be undertaking this summer. We are currently going all out on 
some of our major development projects directed by both PRIIA 
and ARRA, so it might be useful if I summarize these 
developments. We are, for example, undertaking six PRIIA-
mandated studies of routes and services, two of which I 
mentioned previously, and we have received requests for 
involvement with 283 other projects in 34 different States to 
be funded by ARRA. Those states will now be studying the 
recently released FRA guidelines that came out last week, and 
taking a hard look at what they really want to do.
    Last year when President Bush signed PRIIA into law, it 
established a federal grant program for States that wished to 
develop intercity passenger rail service. When Congress passed 
ARRA, that Act included $8 billion in funding for the capital 
grant program authorized under PRIIA. This legislation is 
critical to shaping the continued development of intercity 
passenger rail service. For example, ARRA funds will be 
available for individual projects, generally small projects, 
that are expected to provide discrete levels of benefits on the 
existing route. They will also be available for corridor 
programs which will be larger bundles of projects that are 
expected to provide for improved passenger service over whole 
corridors. While PRIIA does provide access to capital funding, 
operating funds are the State's responsibility, so if, for 
example, the State wishes to pursue an expansion of Harrisburg-
to-Pittsburgh service, state operating funding will be a pre-
condition to receive federal funds.
    Amtrak is very eager to support the ARRA applications. I 
would join with what Mr. Yachmetz and Mr. Fauver said before 
me, that we have a tremendous opportunity facing us right now. 
We cannot afford to fail. The President has shown great faith 
in passenger rail service and the continued development of 
intercity passenger rail service in the United States. Amtrak 
is very eager to develop intercity and high-speed rail service 
in all parts of America including right here in western 
Pennsylvania.
    Thank you very much for the opportunity, and I will be 
happy to take questions at the end of the testimony.
    Mr. Altmire. Thank you.
    Mr. Gleason.
    Mr. Gleason. Good morning, Congressmen Altmire, Shuster and 
Murphy and I certainly appreciate the opportunity to come 
before you today to discuss Keystone West, and obviously I 
appreciate your interest in this.
    You know, one of the things that we have had a difficult 
time getting was a lot of interest in the Keystone West 
Corridor. The Keystone East Corridor, as everybody has 
described, has been very, very successful, but when we move 
west we haven't had a similar effort. I think it is important 
to understand the context of the proposed Keystone West, what I 
call a technology corridor, and the context is, as we struggle 
to reinvent our regional economy, having this type of 
infrastructure and this type of tool becomes very important to 
attract capital investment and investment into jobs.
    The corridor from Pittsburgh to Altoona to State College to 
Harrisburg will never have a limited access four-lane 
interstate highway. Parts of that corridor are covered by 
interstate highway but parts aren't, and of course we have 
Interstate 80 north of the corridor and we have the turnpike 
south of the corridor, so it is kind of left there. So it kind 
of leaves the corridor, you know, in terms of the 
infrastructure necessary to promote economic development weak.
    Now, you know, the dream of high-speed rail has been around 
for 30 years. I remember Senator John Heinz talking about it. 
Millions and millions of dollars have been spent promoting it 
and studying it and so on and so forth, and it is a wonderful 
dream, but it is not going to happen in the immediate future. 
It is going to happen, if it happens at all, way down the road, 
and what we need to do is try to take the infrastructure we 
have now and leverage that infrastructure and utilize it to 
make Keystone West Corridor a reality.
    I think the partnership that was discussed here between the 
State and the federal government and Amtrak is a wonderful 
partnership, and as everybody has said, the Keystone East 
really kind of showcases the success of that. We need to take 
that same partnership and fund it properly and get that working 
on the Keystone West because the citizens west in this corridor 
really need that type of help.
    One of the things they talked about is infrastructure 
improvements on the Norfolk Southern line and I think it is 
important to note that there has really been a precedent sent 
when Governor Casey did a bond issue here in Pennsylvania, and 
I forget exactly how much it was--maybe you remember, I don't 
remember--$60, $70 million, to improve the right-of-way for 
Conrail at that time, and that worked very, very well for all 
the parties involved, Conrail at the time, the State and of 
course our economy, and that kept the main line flowing and it 
was very important in terms of our economic health.
    So, you know, I think that the emerging technology corridor 
that you have is State College, of course, with Penn State 
University there, Pittsburgh, which is an established 
technology center. You have a growing line in the Cambria-
Somerset area with a lot of defense industries and businesses 
in that area, and to connect all these together with the state 
capitol would generate a lot of economic synergism for the 
Commonwealth and for the citizens of the State.
    So that is basically my context, and certainly I am willing 
to answer any questions you might have. Thank you.
    Mr. Altmire. Thank you.
    Mr. Posner.
    Mr. Posner. Thank you. This is my first opportunity to 
address this Subcommittee, so I thought it would be interesting 
to just give you a little background on who I am since you 
don't know who I am.
    I am a Pittsburgher. I'm an investor in railways in the 
United States, Latin America, Africa and Europe. I spent my 
life in the rail industry. I have been a member of the National 
Association of Railroad Passengers since I was 14 years old, 
and my railroad career has included time with Amtrak, the Rock 
Island Railroad, Conrail and the national railroad in 
Guatemala. I hold several jobs right now. I am chairman of the 
Iowa Interstate Railroad, which will serve as the Amtrak route 
to Iowa City under the Midwest Initiative. I am also chairman 
of the Steel City Flyer, which is the express bus to connect 
with Amtrak at Harrisburg, and I am also known as the guy who 
in 1990 tried and fail to save the Pittsburgh and Lake Erie, so 
I am somebody who has spent my life in the industry and I am 
somebody who has put my money where my mouth is. One other 
interesting that we are up to is that next year we are starting 
a high-speed rail intercity service in Europe. We have already 
bought the trains, and that might be interesting also for this 
Committee.
    But what I wanted to do is just give you a very condensed 
version of what I think the most relevant parts of my written 
statement are for this group, given the time constraints, and 
first of all, I think it's already been mentioned, you need to 
keep in mind that the route from Harrisburg to Pittsburgh is 
one of the densest freight railroad corridors in this country. 
It is a mountainous, heavy haul freight railroad. It is a high-
density freight railroad as opposed to the high-speed passenger 
railroad east of Harrisburg, and I think the answer is some 
sort of public-private partnership with Norfolk Southern which 
would build on the foundation of the fact that our Nation's 
rail freight network is considered the world's best, and 
evidence of that is that we are involved in a joint venture in 
France to help them with their freight business so you have got 
Americans saying why can't we have trains like in France while 
the French are saying why can't we have trains like America.
    The other thing to think as far as job creation; it is most 
important to focus on creating transportation as opposed to 
jobs. Western Pennsylvania is littered with infrastructure 
which has mismatched the market and that ranges from the U.S. 
Airways hub at the Pittsburgh Airport to the Wabash Tunnel.
    And finally I think that we in Pennsylvania need to 
recognize that other regions are far ahead of us in this 
process. I have been reading in the press lately about how the 
two frontrunners for the high-speed rail money are California 
and the Midwest. I think that is because they have been working 
on this literally for years and they were prepared when the 
Obama opportunity came along. We need to catch up with that if 
we are going to get anything done.
    And then finally, and this is something that I just thought 
about today so it is not in the prepared remarks, and that is, 
consider the link with transit. If you look at where around the 
world people actually use high-speed rail, it is in places like 
California and the Northeast where high-speed rail is 
integrated with the local transit systems. That is also why it 
works in Europe, Japan, et cetera. It is not likely that people 
are going to drive into downtown Pittsburgh and hop on a high-
speed train to go east. Quite likely it is going to be arriving 
on some sort of a feeder transit system to begin the trip.
    So those are my remarks, and I am hoping that that should 
stimulate some interesting questions and answers, so thank you 
for the opportunity to speak to you.
    Mr. Altmire. Thank you, Mr. Posner, and I would reassure 
you that we do know who you are and that is the reason that you 
are here, so thank you for your comments.
    Mr. Joseph.
    Mr. Joseph. Thank you. My name is Ken Joseph. I am a 
resident of Dormont. I have lived in the Pittsburgh area most 
of my life. I am here on behalf of the National Association of 
Railroad Passengers. Unlike Henry, I didn't join when I was 14 
but I have been there for a little while.
    Actually, it was interesting to hear the three of you speak 
because I think that each of you touched on--between the three 
of you, I think you touched on most of the points I have to 
make. I think that Congressman Murphy did a good job of putting 
the importance of transportation to this region in a historical 
perspective. Over the years this region has prospered in large 
part because of its close association with the efficient east-
west land transportation routes that have taken various forms 
over the years, and we are in danger of losing whatever 
competitive advantage we once had.
    Congressman Murphy also mentioned how air travel options in 
Pittsburgh and the region generally are much less than they 
were several years ago, although I do have to make a slight 
correction to what you said. Five hundred dollars won't get you 
to Harrisburg anymore. There are no more direct flights to 
Harrisburg. There are very few cities you can get to from 
greater Pittsburgh on a direct flight.
    Also, interestingly, and this was mentioned or sort of 
alluded to, we have lost rail transportation options on the 
past 10 years, one of the few parts of the country that has 
done that. In most other parts of the country, there are more 
passenger trains than there were, but in Pittsburgh, we used to 
have the two frequencies that were mentioned between Pittsburgh 
west to Philadelphia, but we also had a second Pittsburgh-
Chicago train which allowed people in places like Altoona, 
Johnstown, Harrisburg, even Philadelphia to make a direct train 
trip west to Chicago. Now, even if you are in Philadelphia, you 
cannot take a direct train to Chicago. You have to change 
trains in Pittsburgh and that can involve anywhere from a 2-
hour to an 8-hour wait in the train station. The 8-hour wait is 
on a Sunday morning, and if you are ever feeling bad about your 
lot in life or depressed for some other reason, go down to the 
station and take a look at the people there who are waiting for 
a train for 8 hours. It is certainly not an efficient or 
comfortable way to travel.
    As also has been mentioned, other parts of the country are 
ahead of us, they really are, and even locally, and Ohio is 
much further along in creating a statewide high-speed rail 
network which hopefully we can connect with here in Pittsburgh 
if we get on the ball. As has been mentioned by many people, 
there is very attractive service from Harrisburg east to New 
York, and as a matter of fact, I know several people who when 
they want to go to New York they don't take the train because 
the departure time and the arrival time aren't good but they 
drive to Harrisburg or Lancaster, park the car and take the 
service from there.
    The first step that I would like to recommend, a very small 
step, granted, in some perspectives but in other perspectives a 
very large step, to improving service here would be to restore 
the through train from Chicago to New York through Pittsburgh 
and the other western Pennsylvania cities and towns along the 
Norfolk Southern right-of-way. It is a shame that we lost that 
train. From what I understand about Amtrak's current rolling 
stock, it could probably be put back on very quickly if we were 
willing to forego diner car service and sleeping car service. 
That would be a small first step. That would double the 
frequencies between Pittsburgh and Harrisburg and points east 
and it would also allow everybody along the Pennsylvania line 
to take a direct train to and from Chicago.
    Long term, I just have to endorse what other people have 
said the answer is, take more advantage of what used to be the 
four-track Pennsylvania railroad right-of-way. Except for a 
relatively small section here in Pittsburgh, there still is 
physically room for four tracks. It is a wide right-of-way. 
Most of it hasn't been lost. Freight railroads, unlike in the 
past, now seem to be willing to work with government in order 
to allow passenger trains more access to their real estate, 
provided of course that they get benefits from that. I think 
that as a long-term solution to rail transportation in western 
Pennsylvania, we need to look at a greater utilization of that 
right-of-way and that can only be done with a significant 
capital investment.
    Thanks again for the opportunity to make these remarks, and 
we appreciate the fact that you have come here to Pittsburgh 
and that Pittsburgh is at least on the radar screen as far as 
improvements to passenger rail transportation. Thanks again.
    Mr. Altmire. Thank you for your testimony, and thanks to 
all of you for your testimony. We will move into the Q&A part 
of the panel, and I want to start with Mr. Yachmetz. I am very 
interested in consideration of the Pittsburgh-to-Cleveland 
corridor as well, and we are here today to talk about the 
Pennsylvania corridor, and Mr. Shuster and I have had many 
conversations about Harrisburg and what we are talking about 
today, but when the President put out his high-speed rail 
corridor list, he had thankfully the Pittsburgh-to Harrisburg 
route, which connects us to the eastern seaboard. He had 
Chicago to Cleveland, which certainly makes sense with 
offshoots into Indianapolis and Cincinnati and Columbus and 
other places. It seems to me the missing link there would be 
that the Cleveland-to-Pittsburgh route, which would then 
connect Chicago to the eastern seaboard, and from our 
perspective in western Pennsylvania, we feel like that would 
make us the hub of the Midwestern and Northeastern high-speed 
rail corridor in the entire United States and we feel like we 
are well positioned to do that. One of the things that I have 
done with the federal highway bill that we are in the process 
of discussing is insert language into there designating that 
Pittsburgh-to-Cleveland link as a high-speed rail corridor 
connecting it with the two that the President has outlined, and 
I just wanted to know what your thoughts were about that.
    Mr. Yachmetz. Mr. Chairman, the designated high-speed rail 
corridors are sort of a legacy of an older program and quite 
frankly need to be revisited, in my opinion, in the context of 
moving ahead with an aggressive high-speed rail program. They 
date back to the Intermodal Surface Transportation Efficiency 
Act, I believe, of 1991 and they were designed to address 
highway rail grade crossings on corridors likely to achieve 
speeds of 90 miles an hour. That is one of the reasons why you 
have this phenomenon that the Northeast Corridor is not a 
designated high-speed rail corridor, even though it is the only 
place that high-speed rail is actually present here in the 
United States.
    The other point that I would make is that under the 
Recovery Act, the way the funding was made available to FRA, it 
uses three different statutory authorizations that come from 
the Passenger Rail Investment and Improvement Act, and two of 
those do not require presence on a designated high-speed rail 
corridor, so the connection you talked about, Pittsburgh to 
Cleveland, is something that would be eligible under the 
Recovery Act funds. It would require Ohio and Pennsylvania to 
get together and come up with a coordinated approach and 
application to dealing with it but it is eligible under current 
funding.
    Mr. Altmire. Thank you.
    Mr. Fauver, in your testimony, you indicate that 
Pennsylvania needs to plan for possible improvements west of 
Harrisburg through Pittsburgh, and to date, what has PennDOT 
done to plan for such improvements and what else needs to be 
done? And I wonder if you could incorporate into your response 
a statement that Mr. Posner made in his testimony about freight 
rail and how the sharing arrangement is with that corridor as 
well.
    Mr. Fauver. Okay. Well, I think in my testimony I 
referenced a study from 2005 that we did. It was called the 
Keystone West study. It was in partnership with Norfolk 
Southern and our approach at that time and approach, you know, 
any approach to that corridor has to be in partnership with 
Norfolk Southern. They own the right-of-way, obviously would 
have to sign off on any investments being made. They are going 
to have to benefit from it. It is going to have to be a 
negotiated item. The Keystone West study identified $110 
million worth of improvements. Really, it was additional 
capacity at pinch points along the line to ensure that if 
several more trains were added to the service, that those 
trains could operate without interruption by freight. Since 
then we went through a funding crisis in transit. Part of that 
funding crisis dealt with operating funding for the Keystone 
corridor, the existing service between Harrisburg and 
Philadelphia, and since the passage of PRIIA we have begun a 
statewide rail plan. We are looking at the Harrisburg-to-
Pittsburgh corridor in the statewide rail plan. We have had 
discussions with Ohio and have supported their efforts to get 
designated status to close that gap between Pittsburgh and 
Cleveland. The big challenge is going to be, where is the 
operating money going to come from and how is the operating 
arrangement going to be developed, and that is one that will 
have to be worked out in Harrisburg.
    Mr. Altmire. Thank you. I will turn it over to Congressman 
Shuster.
    Mr. Shuster. Thank you very much, Mr. Chairman.
    Mr. Yachmetz, I know recently that FRA just put out 
guidance on the stimulus money for high-speed rail and 
intercity passenger rail. The $8 billion is in that program. I 
wondered, what is going to be the breakdown, do you think, 
between money going to traditional intercity versus high-speed 
passenger rail service?
    Mr. Yachmetz. Well, it is hard to say. We actually 
contemplated as we moved forward with our strategic plan and 
the guidance giving some ballpark allocations but in our 
discussions with Secretary LaHood, it became clear that he 
wants to see the applications come in and based upon the most 
meritorious applications allocate the funds, so there is no 
basis towards either high-speed rail or intercity passenger 
rail other than our efforts to make overall improvements in the 
passenger rail.
    Mr. Shuster. So you are going to look at what is out there 
and what looks like it is ready to obviously go quickly but 
where we are going to have the greatest impact, so possibly 
Harrisburg to Pittsburgh or, as my colleagues mentioned, 
Cleveland to Pittsburgh if it makes sense and the engineering 
and those things are----
    Mr. Yachmetz. Yes, sir, they are eligible and we haven't 
made a decision between 200 miles an hour, 110 miles an hour.
    Mr. Shuster. How soon do you think you will start--the 
decisions will be made?
    Mr. Yachmetz. The initial applications, we have--our first 
level of applications are due, right now we are targeting 
August 24 for individual projects and for planning grants, and 
October 2 for the overall corridor proposals. We would expect 
that we would approve some individual projects by the end of 
the summer, and we would make at least the first round of 
approvals of corridor development by the end of the calendar 
year.
    Mr. Shuster. Thank you.
    Mr. Gleason, I wanted to also point out that we didn't hear 
that you served on the Amtrak Reform Council, so you know a 
good bit about Amtrak and some of the ups and down of Amtrak, 
but I just wanted to get your thoughts on, we talked about 
economic development and I think a lot of us in this room 
believe if you build it, they will come, but what kind of 
response are you hearing and what type of economic development 
do you think are going to locate along the corridor or 
passenger rail improvements?
    Mr. Gleason. Well, first of all, I think there is some 
confusion when the term high-speed rail is used, and you know, 
when you use that term, some people think 150 miles an hour and 
then some people might think 79 miles an hour in a certain 
corridor. You know, it depends. And I think, you know, for 
example, the Norfolk Southern line right now I think has some 
excess capacity because of the economy. Also, the right-of-ways 
there, okay, a couple of lines have been ripped up in the past 
as many of you know. Maybe some day in the future we can lay 
another line on that right-of-way for additional capacity and 
work that out with Norfolk Southern. But so, you know, the 
economic development comes in the interrelationship between the 
communities and you have somebody like State College being a 
technology center. You could have people live in Blair County. 
If we had normal DMU service, which is a self-propelled 
passenger car, it can hold up to 90 people, it can travel, you 
know, the corridor on reasonable speeds, and if you had that 
type of service, people could live in Blair County, go to work 
in State College every day or people could live in Westmoreland 
or Cambria County and go to Pittsburgh every day back and forth 
if you had that kind of DMU service back and forth between 
these hubs, and you know, I think what happens is that there is 
a doable way of getting this started, initiated in the short 
term by using the infrastructure that is there, the 
partnerships that are available, without spending a lot of 
money, and with Norfolk Southern obviously it is a willing 
partner, to initiate this service and begin it in the short 
term as opposed to long term is when you talk about high-speed 
rail. When you talk about 150 or 120 miles an hour and going 
down the Conemaugh Gap, I mean, that 79 or 110 miles an hour 
might be fine but going over the mountain to Altoona, 50 miles 
an hour might be fine. But still, people could get from point A 
to point B and the interaction between the communities would be 
terrific.
    Mr. Shuster. Do you have any sense--I know the Keystone 
West passenger rail study didn't look at ridership. Do you have 
any idea on any study that has been out there on what kind of 
ridership do you get? Currently I think from Altoona, 
Huntington, Johnstown west there is less than 60,000 people are 
traveling on that rail line.
    Mr. Gleason. Well, first of all, Amtrak did a study back in 
I think the late 1990s, thereabouts, and it was a preliminary 
study on ridership, and it shows that the ridership would have 
to be built over time, and we had St. Francis University, their 
graduate school of business also did a study and a survey that 
was very favorable. But as somebody mentioned before, if you 
have convenient, economical service that you can depend on and 
you can use on a day-in, day-out basis, I believe that people 
would come and utilize it, especially our senior citizens. 
Especially, you know, in the wintertime, senior citizens are 
closed off and there is no access or egress for them during the 
wintertime, and if you had an intermodal model combined with 
bus services to train stations, you could have people come from 
Altoona or Johnstown to Pittsburgh and take a bus to the 
medical center in Oakland or take a bus out to the airport to 
catch a flight. There are all kinds of possibilities by doing 
this intermodal with today's infrastructure. Nothing needs to 
be invented here.
    Mr. Shuster. Thank you very much. My time is up.
    Mr. Altmire. Congressman Murphy.
    Mr. Murphy. Thank you, Mr. Chairman, and I want to thank 
all the panelists. It has been enlightening. I have a few 
questions here.
    Mr. Fauver, a question for you. We have heard about the 
success of the Philadelphia-Harrisburg run. What do we need to 
do to set it up for success between Pittsburgh-Harrisburg, 
Cleveland-Pittsburgh? What would it take?
    Mr. Fauver. Well, first of all, I think we need to have a 
solid plan that is based on good engineering facts that we look 
at. The communities are there. You know, my opinion is that we 
need to have a way to serve State College. It is a major, major 
population center, major trip generator along that line. We 
need to have good, accessible stations that provide good 
entranceways into the system. If we just put additional trains 
out there on the line today, we are going to be plagued with 
delays, we are going to be serving stations that aren't 
accessible and we are going to have a pretty high cost to 
operate that service and probably not see the results that we 
are looking for. So I think we need to have a pretty 
significant investment in the line and it is going to have to 
start with a pretty solid engineering plan.
    Mr. Murphy. Does that mean we continue if we have that, we 
limit the number of stops along the way? I know some people 
refer to it as the milk train, you know, it is stopping at 
every town along the way. You can't have high-speed rail if you 
are stopping every few miles.
    Mr. Fauver. Let me talk about how works on the segment 
between Harrisburg and Philadelphia and maybe correlate there. 
We have four trains a day out of the 14 that are express trains 
that stop at five stations. Those trains are the ones that 
operate in 90 minutes. The rest of the trains stop at all the 
stations on the corridor and they operate at about an hour and 
45 minutes so it is about a 15-minute longer trip on those 
trains. The key there when you are stopping at all the 
stations, and we currently don't have the infrastructure in 
place to really make that as successful as it could be, is 
getting full-length platforms so people can board easily at all 
locations on the train. We currently don't have that. We are 
working on a plan to invest in stations. The Elizabeth station 
is one of the first that we are investing in to make that work.
    Mr. Murphy. What is the dollar cost of taking care of the 
stations, the lines, et cetera from Pittsburgh to Harrisburg? 
What is that total going to be?
    Mr. Fauver. I don't have a number for the whole line. I 
think it is more than hundreds of millions to actually get it 
up to a higher speed thing that is competitive with the 
automobile but I don't have a definitive number yet.
    Mr. Murphy. Where do we stand in comparing per-passenger 
per-mile costs, rail versus automobile, when you look at 
building highways, adding lanes, et cetera? Can rail be pretty 
competitive? I mean, because the federal government has to 
subsidize whatever it.
    Mr. Fauver. From a pure construction point of view, I think 
it is very competitive. The challenge with rail is building the 
ridership and growing the ridership to a point where it can 
offset the operating subsidy. We are currently subsidizing the 
Keystone Corridor this year at about $8 million. But we have 
had successes. As we have made the major investments in that 
line, the subsidy per passenger has come down, the amount of 
money we are paying per passenger because we have had ridership 
growth and in turn revenue growth that has resulted from it.
    Mr. Murphy. Okay. Thank you.
    Mr. Posner, you invest in these things. So from your 
standpoint as a person who looks at private investment, and I 
was reading up about this Posner principle, investing in 
underdog things, et cetera, along the way. So is this 
economically worthwhile? Is this something that involves 
federal, State and private investors to work on these rail 
lines, and from your standpoint, can it work?
    Mr. Posner. It really depends on the market. You go places 
like Japan and some markets in Europe, it can be profitable 
without subsidies where you have a combination of wealthy 
passengers, existing infrastructure and traffic density. For 
example, Japan is very wealthy, very dense.
    Mr. Murphy. How about here? Can it work here?
    Mr. Posner. Probably not.
    Mr. Murphy. Not to a profitable level?
    Mr. Posner. Probably not as a profitable business. There is 
a model of private sector operation of passenger service which 
is catching on around Europe where private companies compete 
for the opportunity to run passenger service for the lowest 
subsidy but I think that grafting that model into the United 
States may be very, very complicated, and I believe the 
sentiment of the freight rail industry, and I am not speaking 
for the freight rail industry but I can tell you my impression, 
is that there is a lot of concern about unknown third-party 
private operators coming into the business. I think they would 
much rather deal with Amtrak, quite frankly. I think the major 
concern is one of liability, and while the freight industry is 
very interested in promoting anything that benefits businesses 
in addition to freight, it should not compromise the freight 
business and liability is a big concern. And if I could 
mention, the definition of high-speed rail, I think that once 
you start talking about speeds above 110 miles an hour, it is 
going to be pretty difficult to convince the freight industry 
that mixing passenger trains at that speed with freight trains 
is a good idea.
    Mr. Murphy. Well, certainly we recognize that government 
puts money into the air transportation from airports to air 
traffic controllers. They are doing the highways in terms of 
building the roads and the bridges and certainly in the rail 
system, especially as you see the freight system is doing so 
well now. I would think we want to know what the dollar value 
is and what the payoff is, and I want to thank all the 
panelists for your input on this today. I yield back.
    Mr. Altmire. I would open it up for a very quick second 
round beginning with Mr. Shuster.
    Mr. Shuster. This is a follow-up for Mr. Posner on the 
economic viability. That is the debate that has been occurring 
in Congress over the last 30 years. Those in my party, some of 
them say, you know, shut down Amtrak, it can never work. Those 
in the other party, some say that you will have a profitable 
railroad, every passenger rail service in the world needs 
government support. I believe if we do it in the right way, not 
that we can have a profitable--hopefully we can have a 
profitable passenger rail system but at least we can have one 
that breaks even, and I think our problem in America is, if we 
focus on the corridors and not try to have at least today a 
national system, you know, not have the train running from 
Minneapolis to Seattle, which really is a tourist train, if we 
focus on really the high-density corridors in this country, we 
can get to a point where they can be self-sustaining and then 
expand on that to more of a national system if so be it. And I 
just wondered, you know, what are your thoughts of that as I 
look at two things? I look at the history. Up to 1950, there 
was a profitable passenger rail system in this country. It was 
the highways and air travel that caused us to get out of trains 
and into planes and cars, and second, with the expansion, the 
growth of the population in the United States, we are going to 
go in about 35 years from 300 million to 400 million people and 
those corridors that we talk about around the country, the nine 
or so corridors, the density is just going to increase 
significantly. Not everybody is moving from Pennsylvania to 
Arizona. So I wondered, what are your thoughts? Can we get 
there if we focus on those corridors?
    Mr. Posner. Yeah, I think that the word ``focus'' is 
exactly right. If you look at history, what happened was, after 
World War II, largely because of regulation, the first thing 
the railroads said was, if we could only get rid of the 
passenger trains, all of our problems would be solved, and that 
didn't solve the problem. And then the railroads said if only 
we could get rid of branch lines, that would solve all of our 
problems, and that wasn't solved. And so finally what they said 
was, well, if we can only get rid of regulation, that would 
solve all of our problems, and in fact, that did solve all of 
our problems. I am grossly oversimplifying, but just to keep 
the discussion going. Deregulation solved all of the problems 
which then allowed the industry to claw back and start saving 
the branch lines, and I think Pennsylvania has a very 
successful branch line network, and freight rail is a network 
business just like passenger rail is, and so now the industry 
is to the point where we can have serious discussions about 
passenger service but I think that the answer would be simply 
because this country does not have experience in private sector 
passenger business anymore, we need to bring those models from 
overseas, which is one of the reasons why we are trying to do 
it elsewhere. But I think that if you looked at developing both 
corridors and preserving the national system, that would allow 
it to evolve as opposed to looking for some sort of a big bang 
to occur. And I also think that having several regional 
projects, because some are going to work, some aren't, will 
provide some breadth of experience in terms of getting back the 
experience that we got rid of in this country on how to own and 
operate passenger rail systems.
    Mr. Shuster. In keeping with the Chairman's wishes, I yield 
back.
    Mr. Altmire. Thank you.
    I just had one more for Mr. Lang. Has Amtrak engaged 
Norfolk Southern about increasing passenger service along the 
western portion of the Keystone Corridor, and if you have, what 
are the results of those conversations?
    Mr. Lang. Not recently we haven't, and the study that we 
are going to do for you as pat of what was authorized under 
PRIIA is more of a ridership and revenue analysis, but what 
would have to be done once you have that ridership and revenue 
analysis is to determine at that point what level of 
frequencies you want. In other words, say this corridor is 
right for six daily round trips or eight daily round trips. 
That is when you approach the railroad and model with them the 
service and look at what their infrastructure needs and 
requirements would be, look at their capacity, if you will, and 
figure out how to get six or eight frequencies into that 
corridor. Because we don't have a recent analysis of that. They 
are time-consuming studies to undertake. We do a very detailed 
analysis of that work in conjunction with them. Many of the 
engineers that we have are former freight rail employees that 
work very close with the freight rails. So, you know, we are 
able to do that and we have a number of those studies underway 
for other States and we would be happy at the appropriate time 
to work with Mr. Fauver to do that.
    Mr. Altmire. In closing, is there anything that you 
representing Amtrak would want to add to the discussion about 
sustainability of passenger rail and the long-term financial 
obligations?
    Mr. Lang. Sure. That is the real question is, do you want 
to do this in such a way that you attract--you want to have a 
service that attracts riders or is your purpose to limit 
government subsidies for the service. That is the real question 
here. We have 14 States that contract with us to run service. 
In other words, they pay us to run trains that we would not 
otherwise be operating, and the State of California by far our 
largest partner. In 1992, they approached us and signed a 
contract with us to run passenger rail service between Oakland 
and Sacramento. They paid us to run two daily round trips in 
that corridor with a plan to develop that corridor to establish 
more frequencies. In 2006, 14 years later, they maxed out on 
the plan and with 16 daily round trips on the Oakland-to-
Sacramento corridor, 32 train movements a day, and those are 
funded 100 percent by the state of California. Their goal in 
funding the operation of those trains was to get people off the 
roads. Their primary purpose for running that service was to 
get people off the roads and put them in transit. They made a 
decision that what they would use those trains for was to move 
people. It wasn't to limit operating support for those trains. 
It was designed to move people. Each State has a different 
reason for partnering with us. Most of them, though, it is they 
have made the decision that they want to have an another form 
of transportation out there, and I think that that is really 
what you are talking about here today is how can we develop 
Cleveland to Pittsburgh and how can we develop Harrisburg to 
Pittsburgh. We will have--in October we will have ridership and 
revenue analyses to give to you on this and that would 
determine if we want to go forward with the capital plan.
    Mr. Altmire. Thank you all very much. We will now move on 
to panel number two. As the witnesses get settled, I will 
introduce the panel. I would like to welcome all of the members 
of the second panel. We have Dave Sieminski, associate vice 
president for finance and business of the Penn State 
University. We have Lorenzo Simonelli, president and CEO of GE 
Transportation. Next, we will hear from Patrick McMahon, 
president of Amalgamated Transit Union Local 85. We have Mr. 
David Wohlwill, manager of extended range planning for the Port 
Authority of Allegheny County. We have Mr. Robert Ardolino, CEO 
of Urban Innovations. And finally, we will hear from Dr. Fred 
Gurney, president and CEO of MAGLEV Inc.
    Let me remind the witnesses that under our Committee rules, 
oral statements must be limited to 5 minutes but the entire 
statement will appear in the record. We are very pleased to 
have each of you, and I now recognize Mr. Sieminski for his 
testimony.

TESTIMONY OF DANIEL W. SIEMINSKI, ASSOCIATE VICE PRESIDENT FOR 
   FINANCE AND BUSINESS, THE PENNSYLVANIA STATE UNIVERSITY; 
   LORENZO SIMONELLI, PRESIDENT AND CEO, GE TRANSPORTATION; 
PATRICK J. MCMAHON, PRESIDENT, AMALGAMATED TRANSIT UNION LOCAL 
 85; DAVID WOHLWILL, AICP, MANAGER OF EXTENDED RANGE PLANNING, 
PORT AUTHORITY OF ALLEGHENY COUNTY; ROBERT ARDOLINO, CEO, URBAN 
INNOVATIONS; AND FRED GURNEY, PH.D., PRESIDENT AND CEO, MAGLEV, 
                              INC.

    Mr. Sieminski. Good morning, Chair Altmire, Ranking Member 
Shuster and Congressman Murphy. My name is Daniel Sieminski, 
and I am the associate vice president for finance and business 
at the Pennsylvania State University. I also have with me today 
Dr. Teresa Davis, who is Penn State's director of 
transportation services. It is an honor for me to be here to 
testify on behalf of the Pennsylvania State University in 
support of the expansion of passenger rail service in 
Pennsylvania, particularly to State College in Centre County.
    The Pennsylvania State University is very encouraged about 
the prospect of high-speed rail service coming to the central 
part of the Commonwealth. We see many potential benefits of 
such a high-speed rail system to include greater access and 
convenience to the region and an alternative economical means 
to move people quickly and efficiently. We believe it is 
strategically important to the Commonwealth as well as the 
Nation to include State College in the Pennsylvania rail 
network.
    We also cannot discount the advantages of high-speed rail 
to our environment. One of the university's strategic goals is 
environmental stewardship. High-speed rail as a transportation 
alternative helps us recognize that goal.
    When considering State College from afar, one might ask, 
what is so important about making State College part of the 
Pennsylvania high-speed rail network. We believe the following 
information provides the answer to that question.
    There is no doubt that a traditional college education will 
continue to be of great importance to society and that 
excellence in research will continue to be highly valued well 
into the future. What is in doubt, however, is how effective we 
can be in providing a transportation system that serves the 
needs of a diverse group of individuals wishing to take 
advantage of the benefits that Penn State has to offer.
    The notion of high-speed passenger rail to State College, 
Pennsylvania, is not a new one. The first paragraph of a 1985 
report entitled Pennsylvania High-Speech Rail Feasibility Study 
states, ``A high-speed rail passenger system across 
Pennsylvania could offer rapid all-weather travel between 
Philadelphia and Pittsburgh but also create tens of thousands 
of jobs, pump billions of dollars into the state economy and 
spark countless opportunities for real estate development.'' A 
follow-up report published almost 20 years ago in 1990 further 
emphasized the importance of high-speed rail between Pittsburgh 
and Philadelphia through Harrisburg. Both reports included 
trains being routed through State College, suggesting a 
connection through central Pennsylvania would be beneficial.
     A report entitled Pennsylvania Statewide Passenger Rail 
Needs Assessment, which was prepared by the Pennsylvania State 
Transportation Advisory Committee in December 2001, referenced 
State College and three of its even regional meetings regarding 
passenger rail service.
    Since 1985, State College has seen great improvements to 
Route 322 between Harrisburg and Potters Mills, extensive 
upgrades to Route 22 between Pittsburgh and State College, and 
the construction of Interstate 99 between the Pennsylvania 
Turnpike and Interstate 80. Each one of these improvements has 
improved access, convenience and contributed to safer travel.
    The University Park Airport has enjoyed continuous 
investment in facilities and services. In the period from 1985 
to 2007, University Park Airport experienced 208 percent 
increase in annual passenger enplanements. The Centre Area 
Transportation Authority provides the third largest bus service 
in the Commonwealth, moving over 6.8 million riders last year. 
Only Pittsburgh and Philadelphia have larger systems. We 
believe this ranking helps demonstrate the importance of public 
transportation to those living in State College.
    The University continues to focus on providing 
transportation options. In 1999, the University changed the 
campus bus system to encourage use of transit on campus and to 
discourage single-occupant vehicles. In partnership with CATA, 
the University implemented a ride share program and a 
discounted mass transit bus pass program. Additionally, we 
worked with CATA to enhance the regional van pool program. A 
web-based ride share program was added to help students share 
transportation to and from the university.
    In response to requests by both employees and students, the 
University partnered with Fullington Bus Company to provide a 
weekend express bus service from New York City for students, 
employees and the community. This year, due to requests, we 
will be providing a trial program for a weekend express bus to 
Baltimore and Washington, D.C. The participation of our 
University community members in these transportation 
alternatives reflects the willingness of people to use 
alternative modes of transportation when available.
    While State College continues to see improvements in the 
highway systems, airport capacity and bus service, the closest 
high-speed rail passenger service is in Harrisburg, which is 
more than 90 miles away. In many ways, that 90-mile separation 
creates a barrier for many people traveling to or from State 
College.
    Throughout the Commonwealth, Penn State's enrollment 
totaled 92,613 during the fall 2008 semester, making Penn State 
one of the largest universities in the Nation. While not all of 
these students are enrolled at University Park, one must wonder 
what a University Park student would say if high-speed rail was 
one of the transportation options. If it is one of Penn State's 
44,112 students at University Park, he or she might say high-
speed rail is an affordable and efficient alternative to my 
travel between home and University Park for holidays and 
special weekends.
    Penn State is also recognized as one of the major research 
universities in the Nation. In 2006, Penn State was ranked 13th 
nationally with research and development expenditures totaling 
$664,182,000. Penn State's Conferences and Institutes brings 
nearly 50,000 people to our conferencing programs each year. 
Summer camps bring almost 220,000 youth from across the country 
to Penn State.
    We have already heard the mention of Penn State football. 
The University's membership in the Big Ten further demonstrates 
the importance of high-speed rail service to State College as 
one looks beyond the borders of Pennsylvania at potential links 
to the high-speed rail service expansion in the Midwest.
    The economic benefit of students, research and conferences 
and youth camps and Penn State football is summarized in a 2008 
report. Let me read from the report----
    Mr. Altmire. If we could start to summarize, we can turn to 
some of this in the Q&A.
    Mr. Sieminski. Penn State contributes more to the State's 
economy annually than any other industry. In 2008, the 
University generated $8.5 billion in direct and indirect 
economic impact and an additional $8.7 billion through business 
services, research commercialization and the activities of 
alumni for a total of $17 billion.
    In closing, I would like to thank the Committee for 
allowing me to testify in support of bringing high-speed rail 
service to State College. Borrowing a quote from the 1999 high-
speed intercity rail passenger commission final report, ``High-
speed rail would be a catalyst for economic growth.''
    With that said, we believe including State College, 
Pennsylvania, as part of the high-speed passenger rail network 
is strategically important to the Commonwealth for the reasons 
I brought you today. Thank you.
    Mr. Altmire. Thank you. We appreciate Dr. Davis being here, 
and if you would like, I would invite you to sit behind Mr. 
Sieminski in the Q&A if you feel like you might want to have 
something to say. It is up to you.
    Mr. Simonelli.
    Mr. Simonelli. Mr. Chairman, honorable Members of the 
Committee, my name is Lorenzo Simonelli. I am the CEO of GE 
Transportation in Erie, Pennsylvania. Established more than 100 
years ago, GE Transportation provides leading freight and 
passenger locomotives, signaling and communication systems, 
replacement parts and value-added services to our rail 
customers around the globe. Approximately 17,000 GE locomotives 
are currently in use in more than 50 countries.
    The infusion of $8 billion in funding for high-speed 
passenger rail in the stimulus legislation provides an 
opportunity for the United States to develop a leading position 
in passenger locomotive production. GE is prepared to build in 
northwestern Pennsylvania the next generation of high-speed 
diesel-electric passenger locomotives, which will support the 
high-speed rail initiative, create U.S. passenger rail 
manufacturing capacity and provide well-paying U.S. jobs.
    GE Transportation is arguably best known for the 
development of its groundbreaking Evaluation Series locomotive. 
It is the most technically advanced, fuel-efficient and low-
emission locomotive to date. The Evolution is 5 percent more 
fuel efficient and generates 40 percent lower emissions than 
previous locomotives. One locomotive saves approximately 
300,000 gallons of fuel over the life of the locomotive. GE is 
prepared to transfer this state-of-the-art technology to the 
next generation of high-speed passenger locomotives which would 
deliver an estimated 25 percent of fuel savings and emission 
reduction by approximately 60 percent compared to the older 
locomotives currently in use.
    Both the United States and GE currently face the most 
challenging economic environment in decades. However, times of 
crisis offer unique opportunities to innovate and upgrade. Now 
is the time to revitalize the passenger rail industry in our 
country by building the next-generation passenger locomotive 
here and replacing 20-year-old locomotives with state-of-the-
art green rail transportation solutions.
    GE has a long and successful past working with Amtrak. We 
designed and produced the Genesis passenger locomotive for 
Amtrak in 1997 with the most recent production run in 2001. GE 
is prepared to work with DOT, Amtrak and the States on the 
specifications for and production of these coming passenger 
locomotives.
    Congress and the Administration need to ensure that there 
is a standardized approach to passenger locomotives that 
recreates a U.S. industry with significantly lower production 
costs than new passenger locomotives. If we fail to adopt a 
standardized approach, the true benefits from jobs to 
efficiency will be far less significant. Using technology 
developed through the Evolution locomotive, GE will meet the 
DOT standards by building new passenger locomotives with a top 
speed between 110 miles per hour to 124 miles per hour.
    As a measure of the environmental benefits of this new 
technology, replacing a fleet of 200 older locomotives would 
have a savings impact of 2 million gallons of fuel and an 
emission reduction of 21,000 tons of CO2, 1,560 tons of NOX and 
200 tons of particulate matter. In addition, this upgrade would 
sustain approximately 1,900 jobs right here in America.
    We encourage the federal government and Amtrak to continue 
to exercise leadership. In administering the $8 billion high-
speed rail program, the Department of Transportation must focus 
its efforts on developing domestic passenger rail manufacturing 
capacity. Similarly, today Amtrak is uniquely positioned to 
provide new leadership in passenger rail by upgrading and 
expanding its passenger locomotive fleet. GE demonstrated over 
the past decades that it possesses the know-how and 
manufacturing base in the United States to develop the next 
generation of fuel-efficient and low-emissions high-speed 
passenger locomotives. We are ready to partner with the federal 
government, the States and Amtrak to make higher and high-speed 
passenger rail a reality by providing locomotives made in the 
United States of America rather than importing technology and 
products from overseas. The modernization and greening of aging 
locomotive fleets in America could clearly have a profound 
impact on safeguarding well-paying manufacturing jobs in the 
United States and right here in Pennsylvania.
    Thank you for the opportunity to speak before you. I would 
be happy to answer any questions you might have in this forum 
or at later date.
    Mr. Altmire. Thank you.
    Mr. McMahon.
    Mr. McMahon. Thank you, Congressman Altmire, Congressman 
Shuster and Congressman Murphy for the opportunity to testify 
here today. I am speaking here today on behalf of the 
Amalgamated Transit Union, the largest organization 
representing public transportation, paratransit, over-the-road 
and school bus workers in the United States and Canada. With 
more than 185,000 members in over 270 locals throughout the 
United States and Canada, we are definitely the largest transit 
union. My name is Patrick McMahon. I am the president and 
business agent of Local 85 here in Pittsburgh. I represent the 
2,400 employees who operate the Port Authority of Allegheny 
County Transit System. I also under the ATU am the chairman of 
the Pennsylvania Joint Conference Board. In that capacity, I 
represent approximately 17 other cities throughout the 
Commonwealth including areas of Harrisburg, Altoona, Johnstown, 
Lancaster and several other of the smaller communities.
    I am here today to talk about a subject which next to the 
extensive revision of our health care system is the most 
important subject that our Nation needs to address if we want 
to grow and prosper. There can be no mistake that the use of 
the American automobile adds to air pollution and saps our 
economy as a result of ever-increasing gas prices. While 
millions upon millions of cars creep along congested highways 
in order to get to their place of business and commerce, we 
must invest in a better way to enhance and improve our 
mobility.
    Although the ATU is not opposed to the high-speed rail 
between major cities, we believe that the investment in public 
transit within the major metropolitan regions is a much wiser 
investment and expenditure of our federal dollars.
    I am here today to talk and encourage a further investment 
into light rail in public transit. We believe that light rail 
will pay large dividends in our country and certainly to 
western Pennsylvania. The idea that public transportation can 
be self-sustaining has already proven to be irrational. Private 
transportation companies have fallen by the wayside simply 
because they cannot be economically operated on a for-profit 
basis. Public transportation systems are now an essential 
public service, the same as police and firemen. They must be 
funded by government. Fare increases and service cuts are not 
the answer and cannot solve the problem. People need 
transportation in order to get to their jobs, stimulate our 
market and invigorate our economy. In western Pennsylvania, the 
expansion of mass transportation, in particular, the light rail 
transportation system, is an absolute necessity. We cannot grow 
unless that occurs.
    Today I advocate for light rail because our experience with 
heavy rail has proven to be a failure. The Port Authority once 
operated a heavy rail system and found it to be unreliable and 
inadequate. Because of the topography of western Pennsylvania 
and the locations of our densely populated areas, heavy rail is 
not suitable to service those areas. The heavy rail system is 
simply impractical for western Pennsylvania.
    At one point streetcars were the engines which drove the 
region's economy. Those streetcars were thought to be outmoded, 
but we have come to learn that going back to the streetcar in 
the form of new, more efficient light rail vehicles is the 
answer. Unlike our forefathers, however, we must recognize that 
these light rail vehicles must operate on their own dedicated 
right-of-ways and be made accessible to the riding public where 
the demand is heaviest.
    In the Pittsburgh area, we have several areas that 
absolutely would benefit from the expansion of light rail 
service: the Route 28 corridor, second would be the Oakland 
east end area, and the south side of Pittsburgh. We currently 
have a light rail system which services the South Hills and a 
new connector soon to be opened in order to service the North 
Shore where the Pittsburgh Pirates, the Steelers and our new 
casino is located.
    In my more formal presentation, which I have provided a 
copy to you, I have outlined what I believe to be the best 
possible way to connect the entire light rail system. 
Essentially my idea is to integrate the existing system and 
extend it through the Oakland east end area, across the 
Allegheny River, along the 28 corridor. As an offshoot of the 
servicing the Oakland area, we should connect the south side of 
Pittsburgh into the existing South Side Rail Station.
    The development of a light rail system to the areas 
mentioned will result in our entire region being tied together 
in one continuous transit system that will allow someone from 
the furthest stretches of Allegheny County and even those in 
Armstrong, Butler and Westmoreland counties to board one of our 
light rail vehicles and travel into Oakland, South Side, the 
central city and or the North Shore without any interruptions 
and do so in a cost-efficient manner while contributing to a 
clean and green environment.
    To accomplish this, we would obviously need the help of the 
federal government. We strongly believe that the federal 
surface transportation Reauthorization bill needs to not only 
increase funding for public transit capital projects but also 
to include funding for operating assistance.
    The Amalgamated Transit Union and this local that I 
represent enthusiastically support the inclusion of House 
Resolution 2746 as part of the reauthorization package. This 
bill would provide for increased flexibility and the use of 
federal transit funds by allowing transit systems of all sizes 
to use a percentage of their formula funds for operations. Here 
in Allegheny County, a maximum of 30 percent of transit formula 
funds could be used for operating assistance. Significantly, 
the bill would encourage State and local governments to invest 
in transit through a unique incentive program.
    Mr. Altmire. If we could start to wrap up?
    Mr. McMahon. Okay. So Congressman, again I thank you for 
the opportunity. In essence, we support the extension of the 
light rail in the major metropolitan areas as a better 
expenditure for our federal dollars and the rail systems. So 
with that, I will conclude and certainly I am available to 
answer any questions, and I thank you again for the 
opportunity.
    Mr. Altmire. Thank you.
    Mr. Wohlwill.
    Mr. Wohlwill. Good morning, Chairman Altmire and 
Congressmen Murphy and Shuster, I am pleased to represent the 
Port Authority of Allegheny County and I thank you for the 
invitation, and my testimony is going to elaborate on points 
that Mr. Posner and Mr. Gleason made about integrating local 
transit systems within a regional or intercity rail system.
    Port Authority is a multimodal transit provider. We serve 
220,000 rides each weekday on our bus, light rail and inclined 
plane system. We have 188 routes. Port Authority is currently 
undertaking its transit development plan to determine how best 
to improve the efficiency and effectiveness of its transit 
system and improve service for existing riders and hopefully 
draw new riders within available financial resources. The Port 
Authority does not own or operate any intercity rail services 
nor do any of our facilities serve that kind of market. We are 
very interested in proposals for improved rail service in 
western Pennsylvania. And as these proposals are developed 
further, we urge consideration of how the intercity services 
would interface with local transit, and in particular I want to 
highlight Amtrak's existing Pittsburgh station. It is located 
adjacent to the Martin Luther King, Jr. East Busway. This is a 
9.1-mile rapid transit facility linking downtown Pittsburgh and 
Oakland with Pittsburgh's eastern communities. About 25,000 
riders use it each day. Thus, travelers from many of these 
communities have direct access to the Amtrak station and 
moreover a number of routes operating on other parts of our 
system also use Penn Station as a layover point so their routes 
from the north and the west that come right to Penn Station so 
those communities also have direct access to the Amtrak 
station.
    In recent years, Penn Station, which is the name of our 
busway station that is adjacent to the Amtrak station, has 
emerged as a regional transit hub, and each of the counties 
that surround Allegheny County have their own transit system 
and many of these operate services from those counties to 
downtown Pittsburgh, and these include Beaver County Transit 
Authority, Mid Mon Valley Transit Authority, Meyers Coach, 
Westmoreland County Transit Authority and Newcastle Area 
Transit Authority and the City of Washington's transit 
authority. Thus, direct service is available not only from 
Allegheny County to Penn Station and the Amtrak station but 
throughout the region, and this very high level of transit 
access makes it possible for passengers arriving on a train to 
access various parts of the region without going through the 
expense of a rental car, and then conversely it also makes it 
possible for the region's residents to access the Amtrak 
station without worrying about limited and expensive parking in 
the station area.
    While these linkages to local and regional transit are 
important, I would also like to mention another benefit of the 
proximity of our transit system to the existing Amtrak station, 
and that is Port Authority's police is headquartered in what 
used to be call Pitt Tower. That is right near the Amtrak 
station, and in these days of security concerns, that adds an 
extra set of eyes and ears to the system, even though our 
police are focused on our transit system, you know, it is a 
further security enhancement.
    And as a planner, I know you are a bit aways from thinking 
about fares, but as planning for a rail system advances into 
further phases, I would hope that would keep in mind fare 
instrument that would not only be good to pay for travel from, 
say, Harrisburg to Pittsburgh, but could also be used on the 
region's transit systems. That would certainly improve the 
integration and convenience of transferring from local to 
intercity transit and vice versa.
    In conclusion, Port Authority is excited about the 
opportunities for further integration of local and regional 
transit into some kind of intercity or regional rail system in 
western Pennsylvania, and effective integration of local and 
intercity transportation will be mutually beneficial to the 
transit systems, to the operator of the rail system, whether it 
is Amtrak or someone else, as well as rail patrons. We look 
forward to working with Congressman Altmire and anyone else 
involved in planning and developing the intercity rail network, 
and I will be here to answer any questions. Thank you.
    Mr. Altmire. Thank you for your testimony.
    Mr. Ardolino.
    Mr. Ardolino. Good morning, Congressman Altmire, 
Congressman Shuster. My name is Robert Ardolino and I am the 
president and CEO of Urban Innovations and we are based here in 
Pittsburgh, Pennsylvania. Urban Innovations is a nationally 
recognized firm that specializes in transit-oriented 
development and public-private partnerships, known as P3s. Our 
firm currently has projects in California, Arizona and 
Pennsylvania. Today I would like to not only speak to the 
importance of expanded passenger rail in the United States and 
service in western Pennsylvania but to point out that not only 
will enhanced rail service offer environmentally friendly 
options, aid in reducing traffic congestion, improve air 
quality and communities around such benefits, but it would 
carefully plan land use and economic development along rail 
corridors, both passenger and freight. Such developments are 
win-win situations for everyone.
    For decades the automobile has been the force behind real 
estate development in America. As a result, open space and 
greenfields have been consumed by an overexpanding suburbia of 
large yards, wide roads and massive parking lots. During this 
same period, mass transit has been deemphasized, and unlike 
many parts of the world, passenger rail service has all but 
disappeared. Now our Nation and western Pennsylvania has been 
forced to reevaluate its development policies as a result of 
rising energy costs, deteriorating downtowns and overcrowded 
freeways.
    Due to these troubling conditions, States are developing 
programs to rectify these programs. The Federal Railroad 
Administration in conjunction with the Federal Transit 
Administration has developed joint policy statements for the 
use of mainline railroad right-of-ways for light rail commuter 
train operations. Because of the oversight of light rail 
operations is designated to the FTA while intercity freight and 
passenger rail operations oversight is designed to the FRA, a 
joint agency accommodation is required.
    Just as the freight railroad industry is rapidly growing, 
so are passenger operators. There are now 19 commuter railroad 
projects under FRA oversight ranging from large ones such as 
the Long Island Railroad, Metro North Regular rate and rhythm, 
New Jersey Transit, Southeastern Pennsylvania Transportation, 
and the Massachusetts Bay Transportation Authority, to name a 
few. However, southwestern Pennsylvania lacks strong commuter 
rail. Public authorities own all the commuter railroads. Some 
of these operate on their own tracks, provide operating rights 
to freight railroads and Amtrak. Others are tenants on tracks 
owned by freight railroads or Amtrak, and some have shared 
arrangements. Amtrak is a contract operator of services for 
several of the aforementioned commuter railroads while other 
commuter railroads contract with freight railroad operators or 
private companies.
    The time has come in southwestern Pennsylvania to implement 
commuter rail. Urban Innovations along with key stakeholders 
have developed a plan to provide commuter rail service from 
Tarentum Bridge in Westmoreland County to the Convention Center 
in the downtown section of Pittsburgh known as the Strip with 
full cooperation of the owners of the freight corridor known as 
the Allegheny Valley Rail. Our project is supported by 
Congressman Altmire and many regional leaders throughout 
southwestern Pennsylvania including our Secretary of 
Transportation, Mr. Biehler. In the coming months, Urban 
Innovations will compile 8 years of studies and reports along 
with Allegheny County, Westmoreland County and the city of 
Pittsburgh to unveil an implementation plan that will consist 
of a public-private partnership which in conjunction with the 
Federal Railroad Administration and the Federal Transit 
Administration will develop a 22-mile commuter rail that will 
potentially connect to the formerly proposed light rail station 
at the Pittsburgh Convention Center with intermodal connections 
to the bus terminal and the North Shore connector. This project 
will ultimately enable a rider to connect from the Tarentum 
Bridge in Westmoreland County to the South Hills Village 
Station in Allegheny County. The economic benefits and land-use 
opportunities that will surround this project are being 
developed. Urban Innovations has identified five key elements 
to assure the success of this project. They are marketing, 
financial, implementation, operations and maintenance.
    We in Pennsylvania are in the national spotlight with the 
G-20 summit on the horizon. Pittsburgh has recently been 
recognized as one of the most livable cities in America. The 
time has come that we have a tremendous opportunity to enhance 
and revitalize our area through our rail system. This can only 
be accomplished through cooperation, dedication and 
persistence.
    I would like to thank the Chairman and Congressman Shuster 
for giving me the opportunity to speak.
    Mr. Altmire. Thank you.
    Dr. Gurney.
    Mr. Gurney. Good morning, Congressman Altmire, Ranking 
Member Shuster and others, ladies and gentlemen. I am very 
pleased to be able to address this Subcommittee on expanding 
passenger rail service. I am the president and CEO of MAGLEV 
Inc. and we are very vitally concerned about high-speed 
transportation, intercity transportation and the economic 
benefits that can accrue from transportation of this nature. We 
are also the private partner along with PennDOT on the 
Pennsylvania High-Speed Maglev Project.
    First of all, we want to applaud the emphasis that 
passenger rail is now getting on putting together a real 
mechanism for passenger service throughout the country. We 
really believe that that is where we need to go and we totally 
support that. While we understand the necessity for the 
dedication of a significant amount of the stimulus funds to 
conventional dual-use rail mainly to remove those obstacles 
that are limiting passenger service, we very much believe that 
without a concentrated effort and grade separated track, we 
will be continually limited to the 79- to 110-mile-per-hour 
service. We have heard that testimony given here already today. 
We believe that America needs two or three truly high-speed 
transportation systems in order to capture the imagination and 
the support of the public on true high-speed transportation. In 
the case of high-speed maglev, we are talking about speeds 
slightly in excess of 300 miles per hour.
    While I am a strong believer in high-speed maglev, I am 
equally a strong advocate of starting such a program right here 
in the Pittsburgh area. Pittsburgh is strategically located in 
the United States. It was already referred to as a natural hub 
of transportation between here and the Midwest, and I believe 
it is that exactly. Within 500 miles of where we are sitting 
now, we have one-half of the population of the United States. 
That 500-mile radius is what the FRA is referring to as the 
sweet spot for employing high-speed passenger service.
    Not only is Pittsburgh strategically located, it also has 
the kinds of conditions that are challenging to high-speed rail 
and to all the intercity passenger rail. We have rugged 
terrain, a full four seasons of climate and those kinds of 
things which beginning here will demonstrate the applicability 
of this kind of technology throughout the country.
    Let me talk to you about some of the advantages of high-
speed maglev. I already mentioned its high speed at cruising, 
slightly in excess of 300 miles per hour. It is energy 
efficient. It is green technology. There are no effluents from 
the vehicle itself. It offers substantial time savings and 
quality-of-life improvement for travelers. Very importantly, 
and this point came up several times today, very importantly, 
it offers the ability of self-sustaining service, and I will 
explain that a little bit more. With limited maintenance, the 
infrastructure should last as much as 80 years. High-speed 
maglev and particularly our design here in the Pittsburgh area 
shows that we can bring traffic into the heart of the city, 
into the heart of a compact city like Pittsburgh with very 
little disturbance on the existing buildings and 
infrastructure. Likewise with the service to the airport, with 
a station at the airport we can connect to the ticket counter 
with elevators or escalators, direct access to those locations. 
Even though we have lost some of the interconnecting links at 
the Pittsburgh International Airport, we still have an increase 
in the origin and destinations of that airport, so the business 
is picking up. Locally, the business is picking up in those 
areas.
    Let me talk a little bit about the technology of high-speed 
maglev. I think some of you have heard me before, but let me at 
least reiterate some of these points. High-speed maglev as we 
anticipate it for the Pittsburgh and southwestern Pennsylvania 
area has been in development in operational verification in 
Germany for over 30 years. The German government has just 
recently incorporated and certified a TR-09 vehicle that 
includes the latest refinements of that technology. The system 
has been operating in Shanghai, China, since 2004 with a 99.8 
percent up time. Ninety-nine point eight percent of the time it 
has been within 1 minute of its scheduled departure. It is a 
technology that listen to President Obama or Vice President 
Biden, this is the technology they are talking about. They 
talked about high-speed rail in China. This is the technology.
    We have just recently completed the FEIS. It is at the FRA 
for finalization. We have begun some things with the 
development of the infrastructure, particularly with precision 
fabrication which is applicable to high-speed maglev but also 
applicable to the Nation's need for rejuvenation of the rail 
structure and also offshore structures and elevated highway 
structures. We have a tremendous amount of activity that we 
would like to continue to bring up. I think our Secretary of 
PennDOT, Al Biehler, has testified that for every $1 billion of 
transportation funding, 30,000 jobs are created. Thirty 
thousand jobs are created for every $1 billion. That is jobs of 
all kind, not just construction jobs and manufacturing jobs but 
jobs of all kinds.
    Mr. Altmire. If we could start to wrap up?
    Mr. Gurney. I thank you for the time that you have given 
me, and I again would like to say that we are very excited 
about the opportunity of being here and to tell you about this 
exciting transportation, and this is the one that President 
Obama and Vice President Biden are talking about when they talk 
about high-speed rail in reference to China. Thank you.
    Mr. Altmire. Thank you, and thank you all. We will start 
with questions.
    I want to start with Mr. Gurney. We had last week someone 
involved in the transportation department made a statement 
alluding to the fact that it was her perception that the West 
Coast and the upper Midwest were far ahead of anywhere else in 
the country on high-speed technology, and we had someone on our 
panel, the first panel which I am sure you heard reference that 
comment. Can you talk about why you think that Pittsburgh and 
the maglev project was not considered when that statement was 
made?
    Mr. Gurney. Well, I think that most of those statements 
were made with regard to conventional steel wheel on rail 
transportation systems, and to upgrade the existing rail 
systems in the Midwest--and that activity has been going on for 
a long time as the testimony did allude. In the California 
area, a lot of activity has been going on and we have been 
following a little bit of that as well. So they are talking 
about conventional rail systems. There aren't a lot of places 
in the country that are talking about high-speed maglev and the 
benefits of high-speed maglev and so perhaps they just did not 
understand the technology.
    Mr. Altmire. Can you talk a little bit about when you say 
this is in your mind what the President is talking about when 
he talks about high-speed rail, what is the cost differential 
per mile for what you are talking about with your project and 
what other technologies might bring.
    Mr. Gurney. We are talking about a technology here that is 
300 miles per hour. It is grade separated. It is on separate 
track and it is elevated. So whenever we talk about comparing, 
we need to compare equivalent grade separated track to maglev. 
When our comparisons and looking at the statistics particularly 
on light rail, they are very cost comparable. Looking at the 
light rail systems that were installed in Seattle and St. Louis 
and around the country, it is very comparable. We don't have 
good numbers with regard to what the upgrade of existing dual-
use rail would be.
    Mr. Altmire. Mr. Simonelli, do you want to comment on that, 
your technology and what the cost per mile might be in 
implementing it?
    Mr. Simonelli. If you look at the technology we offer 
today, which is diesel-electric, as you know, the freight 
railroad is one of the most productive in the world. I don't 
have the specific figures with me. Just one aspect to comment, 
there is a huge differential between what is mentioned as high-
speed rail and full electrification, and the way we perceive it 
is, it is a gradual move towards electrification where small 
progress can be made immediately with huge benefits by moving 
towards a diesel-electric improvement, which is already 
available. Going down an aspect of full electrification is a 
20- to 30-year journey. It is not something that can be reaped 
immediately.
    Mr. Altmire. Mr. Ardolino, can you talk about--you 
mentioned the Allegheny Valley Rail line, something that we 
have talked many times about. Can you talk about what the 
impediments are to getting that up and running and what needs 
to happen between now and when that first passenger steps on 
that train?
    Mr. Ardolino. Currently, the updated report is being 
completed by HDR Engineers and is due out at the end of this 
month. Once the information has been reviewed, looked at by 
Westmoreland County Transit Authority and our client, Allegheny 
Valley Rail, we have proposed a public-private partnership. The 
next step would be an environmental impact study that would be 
required for the corridor, and that could take approximately 6 
to 8 months to complete, depending upon what kind of 
categorical exclusions we could get with FTA. We have been in 
discussions with Port Authority. They already have an 
environmental impact study in place for the connection to the 
former station that was proposed. Our projection from start to 
finish now would be 2-1/2 years.
    Mr. Altmire. So that would be 2-1/2 years from today----
    Mr. Ardolino. Correct. The end of this month.
    Mr. Altmire. --that passenger train could be up and 
running.
    Mr. Wohlwill, do you want to comment on that, the Allegheny 
Valley Rail line and what the Port Authority, what their 
involvement might be in that?
    Mr. Wohlwill. I have been a participant on a steering 
committee for the Westmoreland County Transit Authority study, 
and I would anticipate that as the study moves forward, we 
would continue to be a participant. Who would be the lead to 
advance the Allegheny Valley Commuter Railroad? I think that is 
something that is still to be worked out. There are several 
different models as far as implementation of commuter rail 
goes, so beyond my saying that we will cooperate, I don't have 
anything further to say on that.
    Mr. Altmire. Thank you. I will turn it over to Mr. Shuster, 
and we will do like we did last time, two rounds of questions.
    Mr. Shuster. I want to conduct Mr. Gurney's follow-up from 
what you were saying before and expand upon that. I know in the 
next maybe 30 days they are going to award $45 million to an 
East Coast and $45 million to a West Coast high-speed maglev 
study or hopefully more than a study, and I just wanted to 
know, number one, how are you feeling about your chances, and 
number two, $45 million, what can you accomplish with $45 
million towards making maglev a reality?
    Mr. Gurney. Well, first of all, let me take the question 
about how do we feel about our chances. I think they are 
fantastic and I think so because we are very definitely the 
leading high-speed maglev organization in the United States. We 
have done a tremendous amount of work in bringing this 
technology to the forefront, and we are continuing to work on 
it. Now, what we would do with $45 million? The real approach 
that we would take is, we see the construction and the work 
towards deployment of high-speed maglev as being one that we 
would go into a design-build mode, and so what we need to do 
then is to do those kinds of things that promote and take it 
from the 10 to 15 percent engineering where we are now to the 
30 percent or so engineering that is associated with design-
build. That would include a major bridge crossing of the Mon 
River. It would include the design of the stations in the 
downtown area and also at the airport, and it would include all 
of those things associated with bringing that together. So it 
is design-build activities in which we would be ready to go for 
construction, release contracts for construction whenever the 
construction funding would become available.
    Mr. Shuster. So $45 million would get you to a point where 
you could be ready to----
    Mr. Gurney. Forty-five million would get us well down that 
path to release the design--you know, from design to design-
build contracts, yes.
    Mr. Shuster. Thank you.
    Mr. Sieminski, you talked about what rail connection would 
do to Penn State. Have you done any studies on how the students 
get to and from--I understand you said rail--or not rail, I am 
sorry, air travel has increased significantly but it would be 
my guess that most kids are coming by car. Is that accurate? 
Were there any studies done as to how many kids would get out 
of cars and onto trains?
    Mr. Sieminski. We have not done those types of studies but 
I would have to venture a guess easily 90 percent come by car. 
We have a number of out-of-state students. You would have to 
guess that they may fly in to a major airport, maybe bused. We 
have a significant number of international students that again 
would fly in to a major airport and look for transportation 
from wherever that airport might be.
    Mr. Shuster. So there would obviously be a benefit to those 
students. It would seem to me because you have the 40 students 
there it would be relatively easy to do some kind of surveying 
of the students to get an idea, you know, how they are coming, 
how far they are driving, because I think a lot of that will 
determine--you know, if they are driving by car from Altoona to 
State College, they are not necessarily going to get on a 
train, but if they are going to Philadelphia and to Pittsburgh 
and various other places----
    Mr. Sieminski. The distance traveled, I think, is very 
important.
    Mr. Shuster. Right. Is that something you would consider 
doing, that Penn State would put together a survey to try to 
give us something to put our teeth into?
    Mr. Sieminski. Certainly.
    Mr. Shuster. And we talked mainly about high-speed rail. 
What would traditional rail service, would that still be 
beneficial and how would that be----
    Mr. Sieminski. There is currently----
    Mr. Shuster. --affected----
    Mr. Sieminski. --rail service, very limited but rail 
service in Tyrone and Lewistown, and I am thinking Harrisburg 
to Pittsburgh, that route being developed is high speed would 
provide an opportunity in Lewistown. From Lewistown, it is a 
half-hour to State College, and with some minor improvements in 
the road, 322, that could be a big improvement for us.
    Mr. Shuster. And Mr. Simonelli, a question on--if we were 
to put out some incentives to standardize approach to 
locomotive manufacturing, how would that benefit manufacturing 
in this country, having Amtrak step up to the plate and put out 
there some kind of standardization on what a locomotive would 
be? How is that going to affect General Electric?
    Mr. Simonelli. Well, I think the biggest benefit is when 
you look at the costs of operations and being able to have a 
standardized approach across Amtrak and then the States as they 
look at replenishing from a locomotive perspective, costs of 
operations go down immensely. If you only have 20 units and 
then another 20 units that are different, having a large fleet 
of about 200 units the same, you can look at savings of about 
60 percent from an operational perspective. From a GE 
perspective, it helps on the employment level and also from an 
aspect of northwest Pennsylvania.
    Mr. Shuster. And if I could, I just have one follow-up and 
will forego the second round of questions. Mr. Simonelli, how 
in general can the Congress strengthen and expand U.S. rail 
manufacturing in this country? What are things that you have 
seen or ideas that you have that we should be looking at to 
help you build rail capacity?
    Mr. Simonelli. I think again some of the initiatives that 
are being taken around the passenger rail and having a standard 
approach, also having Amtrak actually lead the initiative, 
putting through some legislation around the environmental 
requirements and also I think having a better appreciation for 
the differences between high-speed rail and where this country 
is today. There is a number of infrastructure limitations and 
it is a gradual approach, and immediate impacts can be seen by 
adopting diesel-electric locomotives which are available today 
and have already proved very beneficial for the freight 
locomotive carriers.
    Mr. Shuster. Your new locomotive, how fast will that 
travel?
    Mr. Simonelli. We can have a locomotive that goes between 
110 to 124 hours per hour.
    Mr. Shuster. That is for passenger or freight?
    Mr. Simonelli. That would be for passenger, and if you look 
at the average freight locomotive, again the capacity is there 
to go to those speeds but they generally run between 50 to 80 
miles per hour.
    Mr. Shuster. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Altmire. Mr. Sieminski, if we are able to accomplish in 
the future what we were talking about earlier, the Cleveland-
to-Pittsburgh line, Pittsburgh all the way across the State 
through Harrisburg, what would you envision the route that 
would be necessary to get to State College? How would we get 
there?
    Mr. Sieminski. That is a great question. The studies that 
we have had done or that were done 20 years ago suggest 
Altoona, Tyrone, State College, over seven mountains into 
Lewistown. Another study showed further west to Williamsport. 
There are a number of routes that have been identified as 
potential--let me emphasize, it is not to displace the 
Philadelphia-Harrisburg-Pittsburgh connection. That is a 
primary route. Certainly Altoona, State College, Tyrone, 
Lewistown, Williamsport can play a significant role in adding 
to the passengers of a high-speed rail network.
    Mr. Altmire. I am just thinking of the geography, and if 
you are a student who lives in Baltimore, let us say, and you 
wanted to take the train, do you think that would be feasible? 
Go up through Philadelphia, turn left and then end up winding 
around a bunch of mountains to get up to State College?
    Mr. Sieminski. As far as Lewistown, it certainly could be 
very feasible. The next, I will say, 40 miles could be a big 
challenge.
    Mr. Altmire. Thank you.
    Similarly on geography, Dr. Gurney, can you talk about the 
Pennsylvania corridor that we are talking about and the 
challenges that you would face in building a completely new 
infrastructure all the way across the State and what you have 
thought about with regard especially to the Altoona area and 
the more mountainous areas?
    Mr. Gurney. Certainly. I think one of the things that needs 
to be said here is that high-speed maglev has the great 
climbing capability of a 10 percent grade. Conventional steel 
wheel on rail is generally limited to the 3 percent grade. So 
we could go through some very rugged areas, and because high-
speed maglev as we envision it is all elevated, then it is 
simply a matter of changing the heights of our columns so that 
we can keep it as nice and as smooth of a ride as possible. But 
again, being able to climb grades of 10 percent helps get 
around a lot of those difficult terrain areas, and we have a 
challenging terrain right here in the Pittsburgh area. So we 
have looked at that and we could navigate through that easily.
    Mr. Shuster. Will the gentleman yield for a second? 
Somebody told me that technologically maglev, it can go 
straight up. Is that true or is that----
    Mr. Gurney. Well----
    Mr. Shuster. I mean, it is not reasonable to do it that way 
but it has the potential to do that?
    Mr. Gurney. I don't know whether you can go straight up or 
not but you certainly can devise the system to go at very, very 
rapid speeds. At a matter of fact, it is used--the technology 
is used in Holliman Air Force Base on that sled that we are 
using for testing some launching of missiles. So it gets some 
very, very high speeds.
    Mr. Shuster. So the technology could exceed 10 percent, 20 
percent grades if you----
    Mr. Gurney. Yes, but we are really talking about passenger 
comfort here.
    Mr. Shuster. Right. I understand. I just wanted 
clarification because somebody told me that it could exceed 
that, and I didn't know. Thank you.
    Mr. Altmire. Thank you, Dr. Gurney.
    Mr. McMahon, you indicated in your testimony that a new 
light rail system must be strategically integrated--you said 
those words--within the current system. Can you elaborate on 
that, what you mean by that statement?
    Mr. McMahon. Yes. You know, we do have areas of 
southwestern Pennsylvania that definitely could use more 
transportation. I identified the 28 corridor. That is one that 
I know that people around here, it is definitely one of the 
worst commutes in southwestern Pennsylvania, but what I mean by 
that is, the existing--we have the North Shore, which, you 
know, whether you agree with the building in the North Shore or 
not, we have it and we should be looking to what we are going 
to do next. We could expand that. We could expand that North 
Shore out through the 28 corridor. We also have, which a lot of 
folks don't know because we don't use it that much, but right 
at the East Busway under this very building we are in, we have 
the Spy Line that connects right to the East Busway. Now, if 
you would have had the planning to go from the East Busway and 
extend, you know, the rail system out the busway corridor, 
whether it is elevated or right beside it, however the most 
efficient way and the best way of doing it, but if you would go 
out through that corridor, you could connect to Oakland. There 
is already a busway ramp that goes right to the Oakland area, 
which would be beneficial. And then plus, you know, there are 
railroad bridges, things like that, that you could cross the 
Allegheny and then go down through all the Brownfields down 
here where those northeastern suburbs all come in through that 
get on to 28, the Millville, Sharpsburg, all those different 
areas down there that you could integrate with park and rides 
and things like that which we think would be very beneficial to 
southwestern Pennsylvania. You know, we heard a lot of things 
like the Allegheny Railroad, things like that, and they are all 
great ideas but like I said in my comments and more efficiently 
in the paper, we have experienced that and it really hasn't 
worked. The heavy rails haven't worked in western Pennsylvania. 
It is very inefficient. Port Authority had the Mon Valley, went 
up through all the way down to McKeesport. It just didn't work. 
It was very inefficient. They broke down a lot, things like 
that. We think that the topography and, you know, the areas 
that you would have to serve to make it efficient just isn't 
doable in our region because of the geography and things like 
that. I hope that helps. At least I hope that addresses what 
your question was. I don't know.
    Mr. Altmire. It does, and thank you all for your testimony 
today, and I especially in his absence want to thank Chairman 
Oberstar for allowing us to have this field hearing. There is a 
lot of staff work that goes into it. We have staff on both 
sides that are represented. Thanks to all of you for being 
here. This is an incredibly busy week for the Committee. As you 
saw, we unveiled the blueprint for the federal highway plan for 
the next 6 years, which we may bring to Committee as soon as 
this week, and I can't thank the Committee enough for their 
work. This is a very busy time and everything seemed to run 
smoothly. So thanks to each one of you, and I thank the 
witnesses for their testimony and the Members for their 
questions. Thanks to Congressman Murphy for joining us as well. 
And again, the Members of this Subcommittee and Congressman 
Murphy may have additional questions for the witnesses and we 
will ask them to submit them to you for you to respond in 
writing. The hearing record will be held open for 14 days for 
Members wishing to make additional statements or ask further 
questions.
    Unless there is further business, this hearing is 
adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
